<html>
<title> - DEPARTMENT OF DEFENSE APPROPRIATIONS FOR FISCAL YEAR 2007</title>
<body><pre>[Senate Hearing 109-]
[From the U.S. Government Printing Office]



 
       DEPARTMENT OF DEFENSE APPROPRIATIONS FOR FISCAL YEAR 2007

                              ----------                              


                        WEDNESDAY, MAY 17, 2006

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 10:14 a.m., in room SD-192, Dirksen 
Senate Office Building, Hon. Ted Stevens (chairman) presiding.
    Present: Senators Stevens, Specter, Domenici, Bond, 
McConnell, Shelby, Burns, Inouye, Byrd, Leahy, Dorgan, Durbin, 
and Feinstein.

                         DEPARTMENT OF DEFENSE

                        Office of the Secretary

STATEMENT OF HON. DONALD H. RUMSFELD, SECRETARY OF 
            DEFENSE
ACCOMPANIED BY:
        TINA JONAS, COMPTROLLER
        GENERAL H. STEVEN BLUM, CHIEF, NATIONAL GUARD BUREAU

                OPENING STATEMENT OF SENATOR TED STEVENS

    Senator Stevens. Thank you very much. We had a vote that 
held us up. We appreciate your courtesy of being with us this 
morning.
    We are going to hear from the Secretary of Defense, Donald 
Rumsfeld, and the Chairman of the Joint Chiefs of Staff, 
General Peter Pace. They are joined by Secretary of Defense 
Comptroller, Tina Jonas. We're pleased to have the Department-
level witnesses here before us, and we look forward to your 
testimony.
    Today we want to discuss the fiscal year 2007 budget 
request for your Department. The budget request is $423.2 
billion in discretionary budget authority for the whole 
Department for the fiscal year 2007. As we review the 
Department's request, we do so ever mindful of those patriotic 
warriors who are fighting for our freedoms every day.
    Mr. Secretary, General Pace, we're going to make your full 
statements a part of our subcommittee records. Let me turn 
first to the co-chairman of our subcommittee, and then we'll 
see if anyone else wishes to make opening remarks.
    Senator Inouye.
    Senator Inouye. Because of the time constraint, sir, I put 
my statement in the record.
    Senator Stevens. Thank you very much. I have also received 
a statement from the chairman of the full committee, Senator 
Cochran which I will insert into the record.
    [The statements follow:]

             Prepared Statement of Senator Daniel K. Inouye

    Good morning Mr. Secretary. I want to join our chairman in 
welcoming you and General Pace as the subcommittee continues 
its Defense Department hearings on the fiscal year 2007 budget 
request.
    During our hearings this year we received testimony from 
the military departments, the Guard and Reserves, the Missile 
Defense Agency, and the Surgeons General.
    Next week we will conclude our hearings as we take 
testimony from members of the general public.
    As we have listened to the testimony of officials in your 
Department, it is clear that they support your budget request.
    DOD budgets are at record high levels, so it stands to 
reason that funding levels in the request should be sufficient 
to meet all the needs of the Department.
    However, we find a number of areas where surprising 
shortfalls remain.
    In health care, your budget assumes savings in excess of 
$800 million for assumed legislative changes to increase 
beneficiary co-payments and efficiencies. Both House and Senate 
authorizing committees have rejected your proposals, so we now 
have a shortfall in this area.
    We learned when the Navy testified that it had assumed 
significant ``risk'' in its readiness accounts. Its ship 
operating budget is woefully underfunded.
    We are aware that the Air Force has used financial gimmicks 
to support a sustained production of the F-22, while the 
planned termination of the C-17 fails to take into 
consideration the need for more aircraft due to its overuse in 
Iraq.
    The Army has insufficient funds to keep its M-1 program on 
track and is assuming a great deal of risk in its base 
operations funding.
    So even in these times of record budgets we see that 
problems still exist. Add to that record high fuel prices and 
we know that our fiscal year 2007 Defense appropriations bill 
will require some major readjustment from the budget that you 
submitted.
    Gentlemen, I am sure you know how much we appreciate your 
services. Managing this Department, especially in these 
challenging times requires duty above and beyond the call.
    We thank you very much.
    Mr. Chairman, thanks to you for inviting our witnesses 
today, and I look forward to their testimony.
                                ------                                


               Prepared Statement of Senator Thad Cochran

    Mr. Chairman, I am pleased to welcome Secretary of Defense 
Rumsfeld and the Chairman of the Joint Chiefs of Staff, General 
Pace here today.
    I join you in praising the efforts demonstrated by our 
military forces serving around the world. The state of 
Mississippi has over 500 of its servicemembers deployed in 
Iraq, Kuwait, and Afghanistan, and is proud to be supporting 
the Global War on Terrorism. Last month, I talked with troops 
in Anbar province. They were motivated, their morale was great 
and they seemed focused on their mission.
    As you know we are in the process of working through the 
differences between the House and Senate Emergency Supplemental 
Appropriations bills which contain funding for the operations 
in Iraq, Afghanistan and the Global War on Terrorism. I am 
working hard to ensure differences are worked out and funding 
is provided as soon as possible, so our troops have the 
resources necessary to accomplish their mission.
    It would be helpful for us to know how soon the 
Supplemental funds will be needed for the Global War on 
Terrorism and what impact there would be from any delay in 
receipt of this funding.
    I thank you for your leadership of our military as they 
defend our national security interests. I am sure your insights 
about the fiscal year 2007 budget request for the Department of 
Defense will be helpful to us in our appropriations process. 
Thank you for your assistance to the committee.

    Senator Stevens. Senator Bond.
    Senator Bond. Thank you very much, Mr. Chairman.
    And, as I mentioned to the Secretary and the chairman, we 
are extremely proud of the job that our military is doing in 
Iraq and Afghanistan. They don't seem to get credit for doing a 
great job, but we want our men and women in uniform, and the 
civilians who are working with them, to know that we appreciate 
the fact that they've been assigned a tough mission, they're 
doing it, and we appreciate it.
    Thank you, sir.
    Senator Stevens. Senator Burns.
    Senator Burns. I would just ask unanimous consent that my 
full statement be made part of the record.
    [The statement follows:]

               Prepared Statement of Senator Conrad Burns

    Mr. Chairman, Secretary Rumsfeld, General Pace welcome.
    First of all, I would like to thank you for your 
exceptional service to our nation. I think it is important to 
remember that the strain that this nation took on September 
11th was one that you felt personally, we speak of heroes in 
our Armed Forces, I would submit that there are a number of 
great American heroes before us today.
    Our country has responded to the challenges faced by 
September 11th and we have sent a message to those who attack 
innocent civilians that we will not be victimized by terror. We 
will stand.
    Our young men and women serving overseas are a testament to 
that stand. There has been a great deal of talk about the path 
to war, and the justification. Much of the dissent over the 
decision to go to war in Iraq has been shown to be false by the 
declassification of thousands of pages of documents which 
detail Saddam Hussein's efforts to mislead the international 
community, and hide his efforts to develop WMD. It is a shame 
that this evidence goes seemingly unnoticed in the media.
    But, beyond that debate; I believe that it is important to 
remember that Americans, Iraqis, and our Allies are facing 
terrorists in Iraq today. Terrorists who believe that Iraq is 
the keystone to what they view as the beginning of a global 
jihad. If we lose in Iraq it will embolden our enemies. Enemies 
that seek nothing less than global war and conquest of everyone 
opposed to their radical agenda. I believe that we need to 
remember that we are fighting al Qaeda in Iraq, and if we don't 
defeat them there, we will be fighting them here.
    Victory in Iraq will be a victory of the Iraqi people. The 
Iraqis will overcome oppression and terrorism and defeat those 
who would seek to divide their nation. We need to support that 
emerging democracy, and we need to support the democratic voice 
of the Iraqi people who have voted their desire to build one 
Iraq.
    Our forces have been engaged around the world in the fight 
for democracy. I would like to take a moment to discuss our 
efforts to ensure that our young men and women and their 
families deployed around the world have a chance to participate 
in our democracy.
    As you know, my colleagues and I are concerned about 
military voting. 17 Senators from both parties including a 
number of Senators who sit on this committee sent a letter to 
your office in March expressing our support for fixing the 
military voting process. As you know, we have a number of 
concerns about the effectiveness of the military process.
    A major part of the problem is getting ballots to our 
service men and women in remote locations. I look forward to 
working with you to implement the Interim Voting Assistance 
System (IVAS) in order to be able to solve a portion of this 
problem by emailing blank ballots to our service members.
    In a recent report the GAO has cited concerns about the 
Federal Voting Assistance Programs (FVAP's) efforts to quantify 
military voter turnout. Low survey response rates, a lack of 
analysis of respondents, and a failure to conduct a sampling 
error analysis are all cited in the report. What this means is 
that the FVAP office cannot really tell us how many of our 
military service men and women voted, or what percentage of 
their votes were counted.
    On the other hand the Election Assistance Commission 
estimates that 18 percent of military votes were not counted in 
2004, another survey indicates the percentage may exceed 25 
percent. Whether one in four military voters is disenfranchised 
or one in five: either way, this is unacceptable.
    In addition the Election Assistance Commission is still 
waiting on the FVAP to provide a report of electronic voting 
efforts in the 2004 election. Without the results of this 
report it is difficult to determine how to move forward with 
the development of electronic voting initiatives.
    I am certain that you share my concern that our young men 
and women serving overseas have the right to vote. I look 
forward to speaking with you on the subject in the near future.

    Senator Burns. And about the only thing I want to highlight 
this morning is--and I'll ask no questions on it, but I want 
the Secretary and the chairman to be aware that we're trying to 
install a new Federal Voting Assistance Program in the military 
and trying to get most of the ballots to our fighting men that 
are scattered around the world, and to get those ballots back, 
and to be counted. We seem to think that this is a very 
important part of their participation in this great country.
    And we'd like to also acknowledge the great job that 
they're doing over there--and everywhere, in fact. And it's, I 
think, because we have great leadership here. And I thank you 
for coming this morning.
    Thank you, Mr. Chairman.
    Senator Stevens. Mr. Secretary, are there other witnesses 
you'd like to have identified for the record? I know you've got 
an array with you, but we're pleased to hear your comments.
    Secretary Rumsfeld. Thank you, Mr. Chairman. I would like 
to identify General Steve Blum, the Chief of the National Guard 
Bureau, who is also here with us.
    Senator Stevens. Thank you very much.
    General, nice to have you here.
    Pleased to have your statement, sir.

                     SECRETARY'S OPENING STATEMENT

    Secretary Rumsfeld. Thank you, Mr. Chairman, Members of the 
subcommittee. We appreciate this opportunity to meet with you 
on the President's budget request for 2007 for the Department 
of Defense.

                             TRANSFORMATION

    Yesterday, I met with a quite different gathering, the 
graduating class of the Virginia Military Institute (VMI). Many 
of them will be putting on the Nation's uniform and see service 
overseas in the months ahead. They'll join nearly 200,000 other 
talented young people who are slated to join the U.S. military 
this year, folks who could be something different, something 
easier, not to mention something safer, and for better pay, but 
who have chosen, instead, to raise their hands and step forward 
to defend our country.
    The U.S. military that they are entering today is 
profoundly different from the force that existed when they 
applied to college 5 years ago. Our armed forces are in the 
process of transforming, and I want to highlight just a few of 
the significant shifts that have taken place and that are 
reflected in this budget.
    First, the changes to our global posture. When I returned 
to this post in 2001, the U.S. military, though smaller, was 
arranged and operated much the same as it was when I was 
Secretary of Defense some 30 years before. In addition, U.S. 
forces were located around the globe in roughly the same places 
they were some 50 years ago, when Soviet armored divisions were 
poised to cross the Fulda Gap and South Korea was then an 
impoverished nation devastated by the Korean war.
    In a major overhaul of our country's global posture, 
thousands of U.S. troops and their families are returning to 
home bases in the United States, the first of some 170,000 
servicemembers and dependents worldwide who will be affected 
over the next decade.
    Just 3 or 4 years ago, the Army consisted of 48 deployable 
combat brigades organized within divisions, their basic 
building block since World War I. In the past, sending one 
brigade overseas required stripping out key headquarters and 
support elements from its parent division, essentially ending, 
or at least reducing, that division's ability to respond to any 
other contingencies.
    Today, the service is well along in reorganizing into a 
more expeditionary force of 70 modular brigade combat teams 
across the Army's Active and Reserve components. These more 
agile, lethal, and more autonomous units can deploy and fight 
quickly with enough of their own firepower, armor, logistics, 
and administrative assets to protect and sustain themselves 
over time. Furthermore, as a result of reorganizing and 
rebalancing skills and positions across the force, tens of 
thousands of soldiers have been shifted from the institutional 
army, the ``tail,'' which trains, supports, and administers the 
force, to the operational Army, that portion of the service 
that's organized, trained, and equipped to deploy and fight.
    The effect of these initiatives by the Army is that a 
relatively modest increase in the overall size of the Army is 
leading to a significant increase in the deployable ``boots on 
the ground,'' or ``teeth,'' the on-call combat power for our 
Nation's defense.

                             NATIONAL GUARD

    Five years ago, the Army Reserve and National Guard were 
configured as a strategic reserve to be called upon maybe once 
in a generation in the event of a major conflict on the scale 
of World War II. They were chronically undermanned, 
underequipped, and underfunded. For example, of the 34 Army 
National Guard combat brigades on paper, only 15 were even 
called ``enhanced brigades'' and supposedly ready for 
deployment. But even those brigades, year after year, were 
partly hollow and underequipped, and had to be augmented with 
people and equipment from other units before they could be 
deployed. Looking forward, instead of having only 15 so-called 
enhanced brigade--combat brigades, the Army Guard, aided by 
some $21 billion in new funding that will replenish equipment 
and accelerate modernization, we'll have 28 brigade combat 
teams that will be fully manned and fully equipped, like their 
active duty counterparts.
    We will see their flexibility with the President's proposal 
to temporarily increase the supporting role the Guard is 
already playing to secure our Nation's borders. The Department 
of Homeland Security is in the lead role, but Guard units may 
provide assistance, such as mobile communications, 
transportation, logistics training, and construction.
    Military forces will not be involved in apprehension or 
detention of illegal immigrants. The up to 6,000 guardsmen and 
guardswomen proposed for this effort represent less than 2 
percent of the total National Guard force of some 400,000 plus. 
And, for the most part, they will be deployed during their 2 or 
3 week ``active duty for training'' period. As such, this will 
not only not adversely affect America's ability to conduct the 
war on terror or respond to other domestic emergencies, it will 
actually provide useful, real-life training for the members of 
the National Guard.

                       OPERATIONS AND MAINTENANCE

    Further, in 2001, when I came back to the Department, the 
military had 132 unmanned aerial vehicles of all types and 
sizes. Today, it has more than 3,000. In 2001, prior to 
September 11, the Army had less than 500 up-armored Humvees. 
Today, it has more than 12,000.
    Next, some 20,000 positions that previously had been 
performed by uniformed military personnel are today being 
performed by civilians, thereby freeing up 20,000 U.S. 
servicemen and servicewomen for truly military tasks and 
assignments, and thousands of additional positions are 
currently slated to be converted from military billets to 
civilian billets over the next 5 years.

                                  NAVY

    As for the Navy, a few years ago three out of four ships in 
the U.S. Navy were not deployable at any given time because of 
long maintenance and training cycles, which was the product, 
really, of a peacetime culture and a peacetime mindset. By 
applying advanced research and development, innovative 
maintenance and training, and a variety of cost-savings 
initiatives, the Navy leadership has changed the way our fleet 
operates and deploys. Today, the percentage of the fleet 
routinely at sea has increased by more than 50 percent. The 
Navy then was able to deploy only three carrier strike groups, 
and surge to two within 30 days; today, it can have six and 
with the ability to surge one additional carrier strike group 
within 90 days.
    A word about special operations forces, very briefly. In 
the past, those forces were largely limited to augmenting 
conventional operations and training foreign militaries. Since 
2002, the special operations command (SOCOM) has grown by 6,000 
troops, its budget has nearly doubled. They've come a long way 
from the time when, as General Pete Schoomaker--he used to lead 
that unit--put it, ``The special operations forces were more 
like a sports car that was never driven for fear of denting the 
fender.''
    We've overhauled both the way we plan for contingencies and 
the way we deploy forces. The Department's deployment process 
was governed previously by a somewhat inflexible cold war 
process that was really designed for total peace or total war--
lever on, lever off, with very little in between. The 
Department has worked aggressively to overhaul the planning 
process so that contingency plans can be better kept up to date 
to reflect more current assessments.

                         MEETING NEW CHALLENGES

    The military has undertaken the historical changes I've 
mentioned while fighting wars in Iraq and Afghanistan and 
across the globe in the struggle against violent extremism. All 
of the many changes to personnel and the way the military plans 
and fights, to structure and organization, and to training and 
doctrine, have involved having the military challenge old 
assumptions and old habits. At various points along the way, 
the proposed changes have understandably met some resistance--
within the Department, in the Congress, in the industrial 
complex, and certainly in the press. Change is difficult in any 
large organization, particularly one like the U.S. military 
that's been so successful over the decades in doing what it 
does best, which has been to fight large armies, navies, and 
air forces in battles along the line of the first gulf war.
    But, increasingly, the challenge today is more than simply 
large armies. It is irregular and asymmetric threats. But if 
there was any doubt about the necessity and the urgency of 
these changes when President Bush first took office in January 
2001, it should have been dispelled 9 months later, when it 
took only 19 men, armed with box cutters and tourist visas, to 
kill nearly 3,000 of our fellow citizens. And today that enemy, 
though under constant pressure and on the defensive, is still 
conspiring to bring murder and suicide to our cities. This long 
war, this struggle against violent extremists is a central 
security issue of our time. The campaigns in Iraq, Afghanistan, 
and other theaters in the war on terror have added new impetus 
and urgency to the efforts to transform the Department.
    The unprecedented and complex task before us, in what could 
be a decades-long campaign against extremism, has prompted a 
series of shifts in the military's approach to its traditional 
missions, its tactics, its techniques, and its procedures. One 
of the most important shifts underway is in the role and 
importance of intelligence.
    The U.S. military has long excelled in engaging targets 
once they've been identified. We have begun a major effort to 
ascertain where the enemy is going next, rather than where the 
enemy was, and to be much better able to find and fix, as well 
as what the military has always done very well--namely, finish. 
This means significantly upgrading and refocusing U.S. 
intelligence capabilities, both human and technological, and 
more effectively linking intelligence to operations in realtime 
in the field. This is an enormous challenge for the dedicated 
and talented men and women in the U.S. intelligence community, 
and clearly it will take some time to achieve our goals.
    A word on the Department's role in the overall intelligence 
community since September 11. Thoughtful people across the 
Government have been trying to find the right structures, the 
right arrangements, so that we can provide the very best 
intelligence to protect the American people. Everything we're 
doing to upgrade and adjust the intelligence capabilities 
within the Department has been coordinated with the other 
agencies of the Government, the Director of National 
Intelligence (DNI), the Central Intelligence Agency (CIA), the 
State Department, the Federal Bureau of Investigation (FBI), 
and down the line. It is a constructive process, and, indeed, a 
continuous process, despite some of the breathless and 
fictitious speculation of bureaucratic intrigue that we see in 
the daily press.

                            PROGRESS IN IRAQ

    A word on Iraq. Iraq will soon be governed, for the first 
time, by a permanent government of national unity elected under 
a new Iraqi constitution that they wrote and they voted on. 
It's entered a hopeful new phase in what has been a long and 
difficult journey, from being ruled by one of the most brutal 
tyrannies in the 20th century to having a representative 
government and a free political system.
    Secretary Rice and I met with Prime Minister-designate 
Malaki and other Iraq elected leaders last month. They seemed 
to be very serious people who recognize that they have a window 
of opportunity to make headway on the serious challenges that 
their nation faces.
    These developments make it all the more important that the 
Congress approve the President's full supplemental request for 
operations in the global war on terror (GWOT). I know this 
hearing is on the 2007 budget, not the supplemental, but I have 
to say that delay in passing the supplemental puts the military 
services' critical accounts--in particular, operations, 
maintenance, and training accounts--at risk, as the services 
are already being forced to try to reprogram funds from other 
parts of their budgets under restrictions as to the amounts 
they can reprogram. The Army and Marine Corps are already being 
forced to defer contract obligations and supply requisitions 
due to impending budget shortfalls.
    In addition, cuts and delays in providing funds for the 
Iraqi security forces would undermine what has been truly 
significant progress in turning over greater responsibility and 
territory to Iraq's army and police forces. Please keep in mind 
that these kinds of cuts most certainly will increase the 
burden on the taxpayer over the long term.
    It costs some 10 times as much to recruit and train and 
deploy an American serviceman as it does an Iraqi soldier, and 
it costs more than twice as much to sustain a U.S. soldier in 
the theater than it does an Iraqi soldier. Any slowdown in 
funding for training and equipping the Iraqi security forces 
has the added harmful effect of postponing the day when our men 
and women in uniform can continue to pass off more 
responsibilities to the Iraqis and come home.
    Mr. Chairman, I started my remarks by mentioning a group of 
young people who are graduates, yesterday, donning their 
Nation's uniform for the first time. I'll end by referring to 
another group of young people that I encountered very recently, 
who are already serving the country and sacrificing.
    Two weeks ago, I went to the United Service Organizations 
(USO) station in Atlanta's Hartsfield Airport to visit with a 
large group of young Army soldiers, Active and Reserve and 
National Guard. They had been in Iraq for 6 months. They had 
been home for their 2 weeks. I had a chance to--and I hope 
others will do this--I had a chance to shake hands with them 
and visit and thank them personally for their service to the 
country. And it was interesting to me that when we left, and 
watched them, they went down the escalator into the terminal, 
people there, waiting for other airplanes, spontaneously 
clapped and stood up as these folks put their duffel bags on 
their shoulders and moved to charter flights, as I recall, to 
take them back over, and then into Iraq. It's a reflection, I 
think, not only of the high regard that our troops are held, 
but also of the fundamental decency and strength of the people 
of the country they serve. It reflects the appreciation and the 
support for their service that has been manifested by this 
subcommittee and by the Congress and the people you represent.

                           PREPARED STATEMENT

    So, I thank you for your support in this complex and 
difficult struggle. The troops have done everything that's been 
asked of them, and they have done so with courage. And we owe 
it to them, and to the country that they have sworn to protect, 
to see that we provide the resources and the capabilities that 
will not only win today's wars, but also best assure peace in 
the decades ahead.
    Thank you, Mr. Chairman.
    [The statement follows:]
                Prepared Statement of Donald H. Rumsfeld
    Mr. Chairman, Members of the Committee.
    With me today is General Peter Pace, the Chairman of the Joint 
Chiefs of Staff. We appreciate the opportunity to meet with you in 
support of the President's budget request for the Department of 
Defense.
    Yesterday, I met with quite a different gathering--the graduating 
class of the Virginia Military Institute. Many of those young men and 
women are putting on our nation's uniform, and will see service 
overseas in the months and years ahead. They will join nearly 200,000 
other talented young people who are slated to join the U.S. military 
this year--young men and women who could be doing something different, 
something easier, not to mention safer, and for better pay--but who 
have chosen instead to raise their hands and step forward to defend 
their country.
    The U.S. military that many of those graduates are entering today 
is profoundly different than the force that existed when they applied 
to college five years ago. And while our Armed Forces are in the 
process of transforming, it might be useful to highlight some of the 
most substantive and significant shifts that have taken place.
                             global posture
    First, consider changes to our global posture.
    When I returned to this post in 2001, the U.S. military, though 
smaller, was arranged and operated much the same as it was when I was 
Secretary of Defense some 30 years before. In addition, U.S. forces 
were located around the globe in roughly the same places they were some 
50 years ago--when Soviet armored divisions were poised to cross the 
Fulda Gap and South Korea was an impoverished nation devastated by war.
    In a major overhaul of our country's global posture, thousands of 
U.S. troops and their families are returning to home bases in the 
United States--the first of 170,000 service members and dependents who 
will be affected over the next decade. Heavy Army units that had 
previously been garrisoned in fixed positions to defend against 
particular adversaries--some of whom no longer exist--are being 
relocated and reconfigured to be able to move rapidly wherever needed.
    We have also undertaken a major revision of the military's force 
posture here at home, with the largest round of domestic base closings 
and adjustments in our history--reforms that will save American 
taxpayers billions of dollars in future decades.
                               u.s. army
    Consider the dramatic changes to the U.S. Army.
    Just three years ago, the Army consisted of 48 deployable combat 
brigades organized within divisions--their basic ``building block'' 
since World War I. In the past, sending one brigade overseas would 
require stripping out key headquarters and support elements from the 
rest of its parent division, essentially ending or reducing that 
division's ability to respond to other contingencies.
    Under the leadership of Secretary Fran Harvey and General Pete 
Schoomaker, the service is well along in reorganizing into a more 
expeditionary force of 70 ``modular'' Brigade Combat Teams across the 
Army's Active Component and National Guard. These more agile, lethal, 
and more autonomous units can deploy and fight quickly--but with enough 
of their own firepower, armor, logistics, and administrative assets to 
protect and sustain themselves over time.
    Furthermore, as a result of reorganizing and rebalancing skills and 
positions across the force, tens of thousands of soldiers have been 
shifted from the ``Institutional Army''--the ``tail,'' which trains, 
supports, and administers the force--to the ``Operational Army'' that 
portion of the service organized, trained, and equipped to deploy and 
fight.
    The effect of these significant initiatives--combined with 
investments in new weapons and technologies like the Future Combat 
Systems--is that a relatively modest increase in the overall size of 
the Army is leading to a truly significant increase in the deployable 
``boots on the ground,'' or ``the teeth''--the combat power on call for 
our nation's defense.
    Consider that five years ago, the Army Reserve and National Guard 
were configured as a strategic reserve, to be called on once in a 
generation, in the event of a major conflict on the scale of World War 
II. They were chronically undermanned, under equipped, and under 
funded. For example, of the 34 Army National Guard combat brigades on 
paper, only 15 were called ``enhanced,'' and supposedly ready for 
deployment. But even those brigades, year after year, were partially 
hollow and under equipped, and had to be augmented with people and 
equipment from other units before being ready to deploy.
    Looking forward, instead of having only 15 so-called ``enhanced'' 
combat brigades, the Army Guard--aided by $21 billion in new funding 
that will replenish equipment and accelerate modernization--will have 
28 Brigade Combat Teams that will be fully manned and fully equipped, 
like their Active Duty counterparts.
    Today, the Army National Guard and the Army Reserve is becoming an 
``operational reserve,'' capable of taking on a range of missions at 
home and abroad. We have seen this in Iraq, in Afghanistan, and in the 
Guard's impressive response to Hurricane Katrina.
                      national guard on the border
    We will see it again with the President's initiative to increase 
the supporting role the Guard is already playing to secure our nation's 
borders. The Department of Homeland security is in the lead role, but 
Guard units may provide assistance such as mobile communications, 
transportation and logistics training, and construction. Military 
forces will not be involved in the apprehension or detention of illegal 
immigrants. The up to 6,000 Guardsmen and women proposed for this 
effort represent less than two percent of the total National Guard 
force of some 400,000, and for the most part they will be deployed 
during their active duty for training. As such this will not adversely 
effect America's ability to conduct the War on Terror or respond to 
other domestic emergencies.
                            weapons systems
    Weapons systems such as the Crusader artillery system and the 
Comanche helicopter, conceived during and designed for the Cold War, 
have either been cancelled or reduced. In other cases, we have made new 
and innovative use of older platforms, such as the SSGN--a 20-year old 
Trident nuclear ballistic missile submarine that has been converted to 
carry Navy SEALs and capable of launching conventional cruise missiles.
    Further:
  --In 2001 when I came back to the Department, the military had 132 
        unmanned aerial vehicles of all types and sizes. Today it has 
        more than 3,000; and
  --In 2001, prior to 9/11, the Army had less than 500 up-armored 
        Humvees. Today, it has more than 12,000.
                           managing the force
    Some 20,000 positions that previously had been performed by 
uniformed military personnel are today being performed by civilians, 
thereby freeing up 20,000 U.S. servicemen and women for truly military 
tasks and assignments. And, thousands of additional positions are 
slated to be converted from military billets to civilian billets over 
the next five fiscal years.
    About 10,000 civilian employees are for the first time being 
managed under the new National Security Personnel System that allows 
for greater flexibility in hiring, promotion, and assignment.
                       ballistic missile defense
    When President Bush took office, the United States had no defense 
against long-range strategic nuclear ballistic missiles. An initial 
capability has now been deployed that will increase over time.
                           new organizations
    In light of the new global threats, the Department has set up new 
organizations, commands, and leadership positions, including:
  --An Under Secretary of Defense for Intelligence, and an Assistant 
        Secretary of Defense for Homeland Defense;
  --A new Northern Command to help to defend our country--which showed 
        its value in the military's response to Hurricane Katrina; and
  --A Strategic Command that now oversees, among other things, defenses 
        against ballistic missiles, and various other unconventional 
        capabilities.
                                  navy
    A few years ago, three out of every four ships in the U.S. Navy 
were not deployable at any given time because of long maintenance and 
training cycles--the product of a peacetime culture and mindset.
    By applying advanced research and development, innovative 
maintenance and training, and a variety of cost savings initiatives, 
Navy leadership has changed the way our fleet operates and deploys.
    Today, the percentage of the fleet routinely at sea has increased 
by more than 50 percent. The Navy then was able to deploy only three 
Carrier Strike Groups and surge two within 30 days. Today it can surge 
six, with the ability to surge one additional Carrier Strike Group 
within 90 days.
                           special operations
    A word about special operations forces.
    In the past, these forces were largely limited to augmenting 
conventional operations and training foreign militaries.
    Today, the Special Operations Command, or SOCOM, is also a 
supported command, and has recently added a Marine Corps element.
    Since 2002, SOCOM has grown by 6,000 troops and its budget has 
nearly doubled. They have come a long way from the time when, as 
General Pete Schoomaker once put it, the special operations forces were 
like a sports car that was never driven for fear of denting the fender.
                         leadership approaches
    In the past, certain positions were reserved for those from certain 
services who had followed a certain career path. Given the new 
challenges our forces face, we now have, for the first time:
  --A Marine as a Chairman of the Joint Chiefs;
  --A Marine leading NATO and Strategic Command; and
  --A Navy Admiral leading Northern Command and NORAD.
    In addition, the President picked a former Special Forces officer 
out of retirement to become Army Chief of Staff.
    Not only are these flag and general officers doing a fine job at 
fulfilling the traditional duties of these positions, they have brought 
a fresh joint perspective and approach to the Commands they now lead.
                              war planning
    We have overhauled the way we plan for contingencies and the way we 
deploy forces. In the past, an enormous amount of effort and many 
months went into assembling detailed contingency plans that would then 
sit on the shelf while the world and the conditions in it continued to 
evolve and change. And the Department's deployment process was governed 
by an inflexible Cold War process that was designed for total peace or 
total war--a ``lever-on, lever-off'' system--and nothing in between.
    A case in point. As General Franks and his team at Central Command 
went to work to provide the President with a proposal for liberating 
Iraq, he felt that a modified approach was needed. His plan and 
deployment process were designed to do several things:
  --Preserve options and flexibility for the President as the United 
        States and our allies pursued a diplomatic solution;
  --Try to ensure that Saddam Hussein did not provoke a wider war by 
        attacking Israel, as he had done in 1991 with Scud missiles; 
        and
  --Wish to prevent Hussein from torching Iraqi's oil wells, and 
        creating an environmental catastrophe similar to what he left 
        behind in Kuwait.
    And there were other factors to consider:
  --The Iraqi military was weaker than it had been during the First 
        Gulf War, while the U.S. military, though smaller, was 
        significantly more capable in emphasizing a number of 
        technology advances;
  --A prolonged war could inflame the publics of the region--there was 
        no Al Jazeera in 1991--and potentially destabilize key allies 
        and partners; and
  --Garrisoning Iraq with many hundreds of thousands of American 
        troops--which would have entailed moving a large part of the 
        active U.S. Army to the Middle East--could provoke resentment 
        on the part of ordinary Iraqis at such a visible and intrusive 
        foreign presence.
    The plan General Franks and his CENTCOM team developed, with 
consultation and input from the Department's senior leadership--
including the Joint Chiefs of Staff on numerous occasions--was designed 
to:
  --Maintain an element of surprise;
  --Move with speed and agility;
  --Depose Saddam Hussein as quickly as possible before he could do 
        more damage to the Iraqi people and to the region; and
  --Maintain force levels high enough to provide a level of protection 
        and security, but without such a heavy intrusive presence that 
        might feed an insurgency and impede Iraqis from transitioning 
        to governing and defending themselves--which they are now 
        gradually doing.
    The Department has worked aggressively to overhaul the planning 
process for the Combatant Commands so that contingency plans are being 
kept up to date to reflect more current assessments.
                          resistance to change
    The military has undertaken the historical changes I've mentioned 
while fighting wars in Iraq and Afghanistan, and across the globe in 
the long struggle against violent extremism.
    All of the many changes--to personnel, to the way the military 
plans and fights, to structure and organization, and to training and 
doctrine--have involved challenging assumptions and habits. At various 
points along the way proposed changes have understandably met some 
resistance within the department, the military, the press, the 
government, the Congress, and the industrial complex.
    Change is difficult in any large organization, particularly one 
like the U.S. military that has been so successful over the years at 
doing what it does best--which has been to fight other large Armies, 
Navies and Air Forces in battles along the lines of the First Gulf War. 
But increasingly the challenge today is more than only large armies--it 
is irregular or asymmetric threats. There is truth to the saying that 
``if you do something, some people are not going to like it.'' And they 
will be heard from, let there be no doubt.
                              the long war
    But if there was any doubt about the necessity or urgency of these 
changes when President Bush first took office in January 2001, it 
should have been dispelled 9 months later when--despite the expenditure 
of more than $2 trillion on defense and intelligence over the previous 
decade--it took only 19 men, armed with box cutters and tourist visas, 
to kill nearly 3,000 of our fellow citizens and bring our nation to a 
virtual standstill.
    And today, that enemy, though under constant pressure and on the 
defensive, still conspires to bring its cult of murder and suicide to 
our cities--and to those of our allies as well.
    This ``long war''--this struggle against violent extremists--is a 
central security issue of our time. The campaigns in Iraq, Afghanistan 
and other theaters in the Global War on Terror have added new impetus 
and urgency to the efforts to transform underway in this Department.
    Our enemies challenge free societies through non-traditional, 
asymmetric means, using terror as their weapon of choice. Their goal is 
to break America's resolve--the will of our free people--through the 
aggressive use of propaganda and carefully plotted attacks to garner 
headlines and instill fear.
    They are willing to employ every means--every lie, every atrocity 
and every available technology--to achieve their aims. They have become 
experts at manipulating the global media to both inspire and 
intimidate.
                         shifting our emphasis
    The unprecedented and complex tasks before us in what could be a 
decades-long campaign against violent extremism has prompted a series 
of shifts in the military's approach to its traditional missions, 
tactics, techniques, and procedures.
    One of the most important shifts underway is the role and 
importance of intelligence. The U.S. military has long excelled at 
engaging targets once they have been identified. We have begun a major 
effort to ascertain where the enemy is going next, rather than where 
the enemy was--to be much better able to ``find'' and ``fix,'' as well 
as what we have always been able to do--namely to ``finish.'' This 
means significantly upgrading and refocusing U.S. intelligence 
capabilities--both human and technological--and more effectively 
linking intelligence to operations in real time in the field. This is 
an enormous challenge for the dedicated men and women in the U.S. 
intelligence community. And it will take some time to achieve.
    The U.S. military is the largest consumer of intelligence. In the 
past, that term usually referred to tactical battlefield information, 
such as the size, location, and disposition of enemy forces, and the 
like. In the 21st Century, however, intelligence information can no 
longer be put into neat little categories. A single piece of 
information can simultaneously be of tactical intelligence value to the 
local military commander on the ground, but also of potential strategic 
intelligence value to our government.
    A word on the Department of Defense's role in the overall 
intelligence community: since September 11, and indeed since President 
Bush first took office, thoughtful people across this government have 
been trying to find the right formulas, the right structures, and the 
right arrangements so that we can provide the very best intelligence to 
protect the American people.
    Everything we are doing to upgrade and adjust the intelligence 
capabilities within the Department of Defense has been worked out and 
coordinated with the other appropriate agencies of the government--the 
Director of National Intelligence, the CIA, the State Department, the 
FBI, and on down the line. It is a constructive and open process, and 
indeed a continuous process--despite some of the breathless fictitious 
accounts of bureaucratic rivalry and intrigue that are repeatedly 
published in the press.
    In addition, not just the military, but our government, needs to 
shift from reacting to crises--as has been the case for much of our 
country's history--to preventive action to keep problems from becoming 
crises, and crises from becoming conflicts. We are also shifting from 
the natural American impulse to try to do everything ourselves to 
helping partners and allies develop their capacity to better control 
their territory and to better defend themselves and us against these 
new challenges. This is particularly important in a Global War on 
Terror where many of our nation's most dangerous enemies function 
within the borders of countries that we are not at war with.
    These new priorities have prompted the military to undertake some 
non-traditional missions in non-traditional places. For example, a 
joint task force headquartered in Djibouti conducts civil affairs, 
training, and security operations with Ethiopia, Eritrea, Kenya, 
Uganda, and Yemen. The weapons in this unconventional conflict are 
schools, clinics, and shovels. As one serviceman said, ``We're fighting 
a war down there and [we] haven't fired a shot.''
    This shifts are so important because of the nature of the conflict 
we are in. The enemy would like to define this war as a conflict 
between Islam and the West--but it is not. It is, in fact, a struggle 
within the Muslim world--between the overwhelming majority of Muslims 
and that small number of violent extremists. The vast majority of 
Muslims do not share the violent ideology of al-Qaeda. They have 
children and families they care about. They hope for a better future 
for themselves and for their countries. They do not want the extremists 
to win. And many are courageously opposing them at every opportunity.
                                  iraq
    We see this dynamic at work in Iraq, soon to be governed for the 
first time by a permanent government of national unity, elected under 
their new Iraqi constitution. Iraq has entered a hopeful new phase in 
what has been a long and difficult journey--from being ruled by one of 
the most brutal tyrannies of the 20th Century, to having a 
representative government and a free political system.
    Secretary Rice and I met with Prime Minister-designate Maliki and 
Iraq's other newly elected leaders last month. They seem to be serious 
people who recognize that they have a window of opportunity to make 
headway on the serious challenges their nation faces.
    The security situation in Iraq remains a serious challenge. But 
every day, every week, and every month, Iraqi forces grow in size, 
confidence, and capability, and are taking over more and more 
responsibility for larger swaths of their own country. U.S. military 
and Coalition forces continue to play an important role, but their 
mission has shifted fundamentally over the past year--from conducting 
military operations to assisting Iraqi forces as they take the fight to 
the criminals and the terrorists who threaten their sovereign nation.
    More than a quarter million trained and equipped Iraqi Security 
Forces are now in the fight on behalf of the Iraqi people.
    The size and disposition of U.S. forces in Iraq are continuously 
being assessed by General Casey and his commanders on the ground. 
Decisions about Coalition troop levels will be based on their 
recommendations, as has been the case since the earliest planning phase 
of Operation Iraqi Freedom.
    Since being liberated three years ago, Iraq has been governed by a 
series of temporary arrangements--a governing council under the 
Coalition Provisional Authority, an appointed sovereign government, and 
then an elected interim government. Though these were necessary 
arrangements, they were nonetheless temporary, and thus, 
understandably, engendered a certain amount of uncertainty about the 
future. The establishment of a new permanent government, under a 
Constitution the Iraqis wrote, and which was overwhelmingly ratified by 
the Iraqi people, is a significant step forward--it is truly historic.
    Iraq is today the central front in the War on Terror. Our enemies 
know this, even if some commentators in the West seem not to. Osama Bin 
Laden, referring to the United States, recently said: ``Their defeat in 
Iraq will mean defeat in all their wars.'' Ayman al-Zawahiri, his 
deputy, said: ``The arena of jihad in Iraq is now the most important 
arena of jihad in this age.'' And let there be no doubt, while the 
priorities of the extremists are focused on Iraq, their ambitions do 
not end there, especially if the free world were to lose its will just 
as the Iraqi people have begun to chart a hopeful new course.
                          supplemental request
    These developments make it all the more important that the Congress 
approve the President's full Supplemental Request for operations in the 
Global War on Terror.
    In addition to paying for ongoing deployments and operations by 
U.S. forces in the Afghanistan and Iraq theaters, this supplemental 
request includes funds to:
  --Train and equip Afghan and Iraqi security forces--a critically 
        important initiative;
  --Counter the threats posed by Improved Explosive Devices;
  --Continue the needed transformation of the U.S. Army into more 
        capable modular Brigade Combat Teams and support brigades; and
  --Repair and replace damaged or destroyed equipment.
    Delay in passing this Supplemental puts the military services 
critical accounts--in particular operations, maintenance, and training 
accounts--at risk as the services are forced to try to reprogram funds 
from other parts of their budgets. The Army and Marine Corps are 
already being forced to defer contract obligations and supply 
requisitions due to impending budget shortfalls.
    In addition, cuts and delays in providing funds for Iraqi Security 
Forces will undermine what has been truly significant progress in 
turning over greater responsibility and territory to Iraq's Army and 
Police forces. Keep in mind that these kinds of cuts most certainly 
will increase the burden on the U.S. taxpayer. After all, it costs some 
than ten times as much to recruit, train, and deploy an American 
service member versus an Iraqi soldier, and more than twice as much to 
sustain a U.S. soldier in theater. Any slowdown in training and 
equipping the Iraqi Security Forces has the added harmful effect of 
postponing the day that our men and women in uniform can return home.
    Finally, the addition by Congress of non-requested, non-emergency 
related items in the supplemental legislation will have the effect of 
forcing trade-offs concerning support for our troops in the field.
    At $439.3 billion, the President's Department of Defense budget 
request for fiscal year 2007 represents a 7 percent increase from what 
was enacted last year. This is a great deal of money, though at about 
3\1/2\ percent of gross domestic product, it represents a considerably 
smaller fraction of America's gross domestic product then when I came 
to Congress during the Kennedy Administration.
    I understand that on the House side some significant reductions 
have been made in the President's budget submission. It is important 
that the President's defense request be fully funded.
                             mental health
    Before closing, I would like to draw your attention to an issue 
that has been the source of some coverage and commentary in recent 
days--much of it inaccurate--and that is the Department's programs for 
screening and treating mental illness amongst service members. For 
starters, no military in history has done more to identify, evaluate, 
prevent, and treat mental and other health needs and concerns of its 
troops and their families. We have screened more than 1 million service 
members before, during, and after deployments.
    The Department has put in place a number of programs and processes 
to address this issue. They include:
  --Placing combat stress and mental health teams in theater;
  --Setting up world-wide support systems for soldiers and their 
        families; and
  --Implementing a new program to assess and meet with every service 
        member three to six months after they return home from an 
        overseas deployment.
    The conclusion in the draft Government Accountability Office report 
that only 22 percent of returning service personnel identified as at 
risk for Post-Traumatic Stress Disorder are referred for mental health 
support is misleading. The 22 percent figure does not account for 
numerous other service members who were identified and referred to 
their primary care physician or other professional counseling. This is 
exactly what we designed the surveys to do--help us identify issues and 
provide the proper level of care for our people.
                               conclusion
    Mr. Chairman, I started out this testimony by talking about one 
group of young people who are donning our nation's uniform for the 
first time.
    I will end by referring to another group of young people I recently 
encountered who have been serving and sacrificing for our country now 
for a good many months and years.
    Two weeks ago I stopped by the USO station at Atlanta's Hartsfield 
Airport to visit with several dozen Army soldiers--Active, Reserve and 
National Guard. They were about to return to Iraq after their mid-tour 
break. I shook hands and I was able to personally thank them for their 
superb and courageous service to our country. And then the troops slung 
their duffle bags on their shoulders and quietly filed down the 
escalator en route to the charter flight that would take them back to 
Iraq. As they entered the main airport area below, various travelers in 
the waiting area started to take notice, and they began to stand up and 
clap--first in ones and twos, until just about everyone in that airport 
was applauding. Quite a different reception than that which many U.S. 
soldiers received just over a generation ago.
    I am told this type of scene is being replayed often in airports 
all across the nation.
    This is a reflection not only of the high regard in which our 
troops are held, but of the fundamental decency and strength of the 
people of the nation they serve. It reflects the appreciation and 
support for their service that has been manifested in this Committee 
and by the Congress.
    I thank you for your support. In this complex and difficult 
struggle the troops have done everything asked of them--and done so 
with courage. We owe it to them--and to the country they have sworn to 
protect--to provide the resources and the capabilities that will not 
only win today's wars, but also best to assure peace in the decades 
ahead.
    Thank you.

    [Disruption in the audience.]
    Senator Stevens. Whoever that is, will security please 
remove them?
    Mr. Secretary, thank you very much. What you've said, at 
just the end, about total respect for our men and women in 
uniform, I think, was demonstrated last night at the Olympic 
dinner. There was just overwhelming reaction to the young men 
and women there that came from Walter Reed to be with us. And 
it is something to witness, and we are all very proud of that.
    You mentioned the supplemental, so let me also mention it. 
I have had a talk with General Pace and with other officers 
involved in the departmental activity. We are approaching a 
Memorial Day recess, and that recess will take us into June. 
It's my understanding that the--finishing that and getting it 
to the President is absolutely necessary before that recess 
starts. Do you share that opinion?

                          SUPPLEMENTAL FUNDING

    Secretary Rumsfeld. Absolutely. General Pace is correct. We 
simply do need the supplemental passed, and signed, and those 
funds available by the end of this month.
    Senator Stevens. Well, there are a whole series of issues 
involved in that. I'm no longer chairman of that full 
committee, but I know that Senator Akaka has a very difficult 
job. But I do appreciate that. We must carry that word to the 
conferees, that it just has to be done.
    When you look at the problems we have, you also mentioned 
the National Guard. We're glad that General Blum is here to 
discuss that. You have mentioned that there is adequate funding 
for--or personnel for this activity that the President has 
announced--I'm sure we'll all support--and that is the 
deployment of 6,000 of the guardsmen and guardswomen to assist 
in the border activities. Will you need immediate funds for 
that? Can you--can the Department handle that between now and 
September, or do we have to have a supplemental for that, also?
    Secretary Rumsfeld. I think the Office of Management and 
Budget is considering that at the moment, as to what the 
Department of Homeland Security, which is in the lead in this 
respect--I do not have any recent information on that.
    Do you know? Tina Jonas may have an answer.
    Senator Stevens. Ms. Jonas.
    Ms. Jonas. Thank you, Mr. Chairman, I appreciate it. We are 
working currently with the Office of Management and Budget to 
understand the resources that will be needed to do this. My 
understanding is that they will be forwarding to Congress some 
details on those resource requirements shortly.
    Senator Stevens. Thank----
    Secretary Rumsfeld. The----
    Senator Stevens [continuing]. You very much.
    Secretary Rumsfeld. The Department of Homeland Security is 
in the process, and should, by today or tomorrow, provide the 
Department of Defense the tasks that they would like us to 
consider performing to support their efforts--they, being in 
the lead. And, as you know, our forces would not be doing law 
enforcement or standing on the border arresting people or 
anything like that. They would be more in the technical area of 
unmaned aerial vehicles (UAVs) and language translations, and 
various types of communications support, and that type of 
thing----
    Senator Stevens. Thank you. General----
    Secretary Rumsfeld [continuing]. As well as construction.
    Senator Stevens. General Pace, my apology. Did you have a 
separate statement you wished to make?
STATEMENT OF GENERAL PETER PACE, UNITED STATES MARINE 
            CORPS, CHAIRMAN OF THE JOINT CHIEFS OF 
            STAFF
    General Pace. Mr. Chairman, thank you. I will be brief, but 
if I may say just a few things, sir.
    Senator Stevens. Yes. Good.
    General Pace. Thank you, Mr. Chairman, Senator Inouye, 
Members of the subcommittee. It is my distinct honor to sit 
before you for the first time as the Chairman of the Joint 
Chiefs of Staff to represent the 2.4 million men and women in 
the Armed Forces--Active, Guard, and Reserve--who are doing a 
fabulous job for this country--they have never let us down--
and, on behalf of them, to thank each of you for your support, 
not only the resources you provide, but, equally importantly, 
the time you take to visit our troops in the field, the time 
you take to visit them in the hospitals--it makes a 
difference--and to take this opportunity in front of you to 
thank not only our military members, but their families. Their 
families serve this country equally well as anyone who has ever 
worn the uniform. They sit silently at home and pray for their 
loved one, wait for news of their return, and then silently 
stand back and pretend that they had nothing to do with our 
success; whereas, in fact, it's the love and support of our 
families that makes all the difference in the world to all of 
us who wear the uniform.
    I'm also proud to tell you that, for myself and for the 
Joint Chiefs, as a whole, that we clearly--your Armed Forces 
clearly are ready and fully resourced to conduct all the 
missions that this Nation expects of us. Over the last 12 to 18 
months, we've had--the work that has been done on the 
Quadrennial Defense Review (QDR), on the budget for fiscal year 
2007, on the national military strategy--this has included 
literally hundreds and hundreds of hours of deliberations 
amongst the senior uniformed and civilian leadership of the 
Department--to my knowledge, in an unprecedented way. It is 
focused in on winning the war on terrorism, on accelerating the 
transformation, on enhancing our joint warfighting, and in 
improving the quality of life for our servicemembers. And this 
collaboration continues as we develop the roadmaps ahead to 
execute the QDR.
    As the Secretary pointed out, we are in a long war. Our 
enemy is ruthless and patient, and they have a plan. And they 
know that they cannot defeat us on what we consider to be a 
traditional battlefield, but their battlefield is different 
from ours. They are focused on our will, our cohesion as a 
Nation. And it will require our Nation's long-term patience and 
endurance to defeat this enemy.
    There are two areas in which I think Congress can help, for 
sure, as we look to the future, because as we seek to defeat 
this enemy, we are going to need a very robust application of 
all the elements of national power, which means, in my mind, 
among other things, an interagency collaboration and process 
that is effective, efficient, and quick to decide. We need to 
find ways, as you all did for us with the Goldwater-Nichols 
Act, and the results of that Goldwater-Nichols Act being a 
military that is interoperable, leading quickly to 
interdependent. We need to find ways in the interagency process 
to encourage and reward cross-agency work experience, 
education, and training, and also to find a way to encourage 
and reward those in other agencies who deploy with our troops 
overseas and do our Nation's important business that they are 
the experts in doing.

                           PREPARED STATEMENT

    Last, we have an All-Volunteer Force. In truth, it's an 
all-recruited force. They have not let us down. They will not 
let us down. But we need the Nation's assistance, and all of 
the leaders and mentors in the Nation, to impress upon our 
young folks how honorable it is to serve this Nation, not only 
in uniform, but in any way that fits their own roles in life. 
If we do that collectively, then those of us who receive our 
most precious products, our young men and women, our sons and 
daughters, and who are taking care of them, will be able to 
sustain the force that we have and continue to fight this 
Nation's battles.
    Mr. Chairman, thank you.
    Senator Stevens. Thank you very much.
    [The statement follows:]
                Prepared Statement of General Peter Pace
    Chairman Stevens, Senator Inouye, distinguished members of the 
Committee, it is my pleasure to report to you on the posture of the 
U.S. Armed Forces. On behalf of all Soldiers, Sailors, Airmen, Marines, 
Department of Defense Civilians, and our families, thank you for your 
continued bipartisan support. That support has been exemplified this 
past year by Congressional visits to our troops in Iraq, Afghanistan, 
and elsewhere around the world; visits to those hospitalized; your 
funding for operations; your support of transformation and 
recapitalization initiatives; and the improved pay and benefits you 
have provided to our Service members and their families.
    Our successes in the War on Terrorism are due in large measure to 
the dedicated and patriotic sacrifice of our Nation's Service members. 
I want to thank them and their families for all they have done and 
continue to do to maintain our freedom.
    We are in a long war. Our enemy intends to destroy our way of life. 
They seek to expel American influence from the Middle East, overthrow 
the existing secular governments of the region, and establish a 
fundamentalist religious empire on which to base eventual global 
domination. To accomplish this they intend to defeat the United States 
and our Allies--not militarily, but by targeting our unity and our 
will. They aim to undermine our resolve by attacking civilians; taking 
hostages; inflicting casualties on Coalition forces; and using 
propaganda. They believe they can win against the world's most powerful 
nation because they see us as lacking the moral stamina to persevere in 
defense of our beliefs.
    This is not a struggle between America and Islam. Rather it is a 
conflict between those who love freedom and a terrorist minority 
attempting to take power from the majority. Our opponents are loosely 
networked and transnational. They are ruthless, adaptive, and convinced 
that they will win. They intend to do so by destroying the resolve of 
the America people by gradual attrition. They are a patient foe.
    For the first time, America's All Volunteer Force is fighting a 
long war. Our troops and their families know their Nation truly 
appreciates their service and values their sacrifice. Sustaining our 
troops and upholding the resolve of our Nation requires our collective 
leadership. We must underscore for the American public both the nature 
and importance of the conflict we are fighting.
    We traditionally think of war in conventional terms such as the 
Second World War during which the average American had a family member 
serving in combat, and shared their sacrifice on the home front through 
the rationing of goods. This is not the conflict in which we find 
ourselves today. Thankfully, the daily life of the average American 
citizen reflects none of the hardships or shortages we associate with a 
nation at war.
    Unlike past wars, territory conquered and enemy armies destroyed 
are not apt measures of success. The true metrics are public perception 
and the resolve of free peoples to determine their own future. Our 
national commitment to a long-term effort is key in this fight, because 
the enemy neither expects nor intends to defeat us in the short term.
    It is also important to acknowledge that the U.S. military has a 
significant role to play but that it will not win this war operating 
alone. Our interagency partners play vital roles in bringing to bear 
all the elements of national power to ensure long term success.
    To defeat our enemies and protect our Nation, we must 
simultaneously prevail in the War on Terrorism and prepare for the 
future. The proposed fiscal year 2007 Budget ensures we have the 
ability to conduct a broad spectrum of operations. Major conventional 
conflict, counter-insurgency, counter-terrorism, antiterrorism, 
stability operations, humanitarian assistance at home and abroad, 
disaster relief, forward presence, global deterrence, support to civil 
authorities, and homeland defense each require the application of 
tailored forces. The proposed budget funds this wide range of military 
capabilities, and provides our forces with the superbly trained and 
equipped men and women we need to defend America and its interests.
    As stated in our biennial review of the National Military Strategy, 
we are well positioned to accomplish our missions. Our Armed Forces 
stand ready to defend the homeland, deter conflict, and defeat 
adversaries. Allies and coalition partners play important roles in 
meeting these challenges. If an unanticipated contingency should occur, 
our formidable capabilities and those of our many partners around the 
world will ensure we prevail.
    The Quadrennial Defense Review (QDR) underscores the need to 
address today's operational requirements and those of tomorrow. It 
emphasizes the importance of winning the War on Terrorism, accelerating 
transformation, strengthening Joint Warfighting, and taking care of our 
most precious resource--our people. The QDR represents a significant 
effort to understand what capabilities are needed over the next two 
decades and is part of an ongoing continuum of change for the nation's 
armed forces. In particular, it underscores the value of speed and 
precision as force multipliers. The QDR reflects an unprecedented level 
of collaboration and teamwork amongst the senior civilian and military 
leaders of the Department. Our senior defense leaders are continuing 
this dialogue, and we are developing roadmaps to achieve the Review's 
goals for the future.
                        win the war on terrorism
    Iraq remains the central front in the War on Terrorism. Our mission 
there is clear. We are fighting to defeat terrorists and to help the 
Iraqis build a democratic, secure, and economically sound nation--an 
ally in the War on Terrorism. Our ultimate victory in Iraq will 
profoundly affect the security of the United States, our allies, and 
the entire globe.
    The past year in Iraq has seen significant challenges, but also 
remarkable successes. The Defense Department's Report to Congress on 
``Measuring Stability and Security in Iraq'' describes the situation in 
detail. The steadily growing participation in three national elections 
in 2005 vividly illustrated the determination of the Iraqi people--
Shia, Sunni, and Kurd--to embrace democracy, as does their formation of 
a new government. Entrepreneurial activity has significantly increased. 
Most importantly, the Iraqi people are increasingly taking greater 
responsibility for their own security. These successes demonstrate 
genuine progress and flow directly from the hard work of our troops and 
interagency partners.
    Effective governance, the rule of law, economic growth, and social 
well-being can only flourish on a strong foundation of security. We 
will continue to aggressively assist Iraqi security forces to assume 
greater responsibility for a stable and secure Iraq. Commanders on the 
ground will continue to make force level recommendations based on 
conditions not timetables.
    The War on Terrorism is not restricted to the boundaries of Iraq. 
As the events of the past few months have shown, we continue to combat 
terrorists in Afghanistan. In partnership with the Afghan National 
Army, our forces are actively engaged in rooting out the Al Qa'ida and 
Taliban. Likewise, our Provincial Reconstruction Teams, consisting of 
civilian and military professionals from the United States and our 
Coalition partners, assist Afghans at the local level in building a 
stable and free society. An indicator of our accomplishments in 
Afghanistan, as well as a catalyst for continued success, is the North 
Atlantic Treaty Organization's initiative to take on a greater role in 
strengthening security and development. This summer, NATO will assume 
responsibility for the southern sector of Afghanistan and position 
itself to later do so throughout the entire country. These 
international efforts reach beyond Afghan borders and help the region 
choose stability over conflict.
    We are combating terrorism in Southeast Asia. The Abu Sayaf Group 
in the southern Philippines and Al-Qa'ida's partner Jemaah Islamiyah in 
Indonesia present these friendly nations unique challenges. We are 
forging relationships, building capacity, sharing information, and 
conducting focused training with these valued allies. We are also 
working with other nations to strengthen maritime security in the 
Strait of Malacca and other strategic waterways. Our efforts contribute 
substantively to regional security and freedom of the seas.
    In Africa, we continue to partner with regional organizations and 
individual nations to improve their capacity to combat terrorism, 
secure borders and coastlines, and reduce ungoverned space. The 
Combined Joint Task Force--Horn of Africa and the Trans-Sahara Counter-
Terrorism Initiative--developed in coordination with the Department of 
State--improve the ability of countries to foster security and 
stability within their own borders.
    In addition to regional initiatives, an array of coalition and 
interagency partners continue to work with us globally against the 
proliferation of Weapons of Mass Destruction. Legislation authored over 
a decade ago for cooperative threat reduction and counter-proliferation 
of Weapons of Mass Destruction anticipated one of today's most serious 
challenges. We continue that effort. The Proliferation Security 
Initiative expands international intelligence sharing, coordinated 
planning, and capabilities integration. Similarly, our ability to 
execute counter-proliferation operations is enhanced by the Weapons of 
Mass Destruction Maritime Interdiction initiative.
    Defense of the homeland itself remains a key mission in the War on 
Terror. Our efforts to defeat employment of Weapons of Mass Destruction 
by terror groups, as well as a strong response capability should those 
efforts fail, are critical. Terrorist attacks here at home against the 
Nation's citizens, its infrastructure, and its leadership must be 
prevented. Our efforts to date have been successful but constant 
vigilance is necessary.
    We are also confronting the threat of narco-terrorism. Ongoing 
multilateral operations promote security, improve effective border 
control, deny safe havens, and impede the ability of narco-terrorists 
to destabilize societies. Combating drug trafficking has particular 
importance for strengthening security and democracy in our hemisphere. 
Engagement with our Latin American neighbors to shape events and 
forestall crises is vital to protecting democracy for us all.
    Strategic communication is a significant component of the War on 
Terror. Terrorists rely upon propaganda to deliver their message and 
justify their actions and are not constrained by truth. We must counter 
those efforts. Our actions, policies, and words must reflect and 
reinforce our strategic goals and national ideals. What we communicate 
to our friends and foes is at least as important, if not more so, as 
what we do on the battlefield. We need a more cohesive U.S. government 
effort in this area.
    In the War on Terror, our allies and coalition partners execute key 
roles in defeating terrorists on and off the battlefield. Their 
capabilities and regional expertise are complementary to our own. As we 
move ahead in combating terror, we do so increasingly in combination 
with other nations who understand the danger terrorism poses to their 
citizens.
                       accelerate transformation
    As the threats to our Nation evolve, so must the capabilities of 
our Armed Forces. Transformation today remains vital to the defense of 
the United States tomorrow. It is a process, not an end state.
    Transformation is more than harnessing advanced technology. 
Transformation includes rethinking our doctrine and operational 
concepts; adapting professional education and training to meet new 
challenges; restructuring our organizations and business practices to 
be more agile and responsive; improving our personnel policies; and 
reforming our acquisition and budget processes. Nowhere is this more 
evident than in our effort to increase interagency collaboration. 
Defeating terrorists requires more than the use of military force. We 
must harness and synchronize all the instruments of national power to 
win the War on Terrorism.
    Advancing a transformational mindset and culture that readily 
embraces interagency integration begins with our Nation's strategic 
guidance documents. Interagency collaboration is a theme throughout our 
National Security Strategy, Quadrennial Defense Review, National 
Defense Strategy, National Military Strategy, Joint Strategic 
Capabilities Plan, Security Cooperation Guidance, and Unified Command 
Plan.
    Nonetheless, we can still do more to enhance interagency 
effectiveness. Twenty years ago, there were serious institutional 
obstacles to our Armed Services operating as a Joint team. Today, in no 
small part due to the 1986 Goldwater-Nichols legislation, the U.S. 
military is increasingly a true Joint force, interoperable and moving 
towards interdependence.
    The Goldwater-Nichols legislation established a system of 
incentives and requirements to foster Jointness among military 
officers. We need to find similar ways to encourage interagency 
expertise. Rewarding interagency work experience, education, and 
training will facilitate better synergy between departments. Likewise, 
we need and should reward individuals and agencies that rapidly deploy 
and sustain civilian expertise in tandem with our military. Shared 
deliberate and crisis planning capacity among our interagency partners 
will also improve our Nation's readiness for contingencies.
    We are working to better integrate our Nation's diplomatic, 
military, intelligence, information, and economic instruments to 
forestall and address crises overseas, and to be ready to deal with 
catastrophic terrorism, natural disasters, and pandemic disease at 
home. Defense support to civil authorities is an essential component of 
protecting the Nation. Hurricanes Katrina and Rita brought this home. 
The American people expect their Armed Forces to respond in times of 
crisis. Teamwork among our Armed Forces and federal, state, and local 
government agencies--as well as private and volunteer organizations--is 
vital to the security of our Nation's citizens. Accordingly, we are 
preparing now to deal with circumstances that have the potential to 
overwhelm local government and private institutions. U.S. Northern 
Command is expanding its ability to take action swiftly in a variety of 
incidents, including providing military support to large-scale disaster 
relief operations and responding to the outbreak of pandemic disease.
    While transformation will allow us to better deal with 
contingencies at home, it will also improve our ability to boost the 
capacity of other nations to defeat terrorism and stop its spread while 
contributing to the security and stability of nations. The Army's Joint 
Center for International Security Force Assistance at Fort Leavenworth 
and the Marine Corps' Foreign Military Training Units are breaking new 
ground in this endeavor. Likewise, International Military Education and 
Training is a proven means of creating friendships that pay long term 
dividends when international classmates later work alongside U.S. 
forces in overseas operations. Constraints on our ability to implement 
this important program warrant review. These and other initiatives are 
examples of the value of developing capabilities and relationships to 
help promote security and stability worldwide, potentially precluding a 
need to commit significant amounts of U.S. resources to stabilize 
troubled nations abroad.
    Our foreign assistance framework was designed to influence and 
reward behavior during the Cold War. We need a new foreign assistance 
framework for the War on Terrorism to develop the security capabilities 
of fledging democracies and advance regional stability. Thank you for 
the Section 1206 legislation, which has empowered our capacity to boost 
the counter-terrorism training of other nations. It has made a positive 
difference in fighting the War on Terrorism. The support we provide our 
partners is essential to helping them police their own land and 
eradicate terrorist safe havens. Continual assessment of the countries 
that we assist, and the aid we allot, ensures that we are helping 
appropriate nations in the right way.
    It is not enough for us to be successful in responding to today's 
challenges. We need to shape the future with like-minded allies and 
partners. An essential element of this process is the transformation of 
our Global Posture. We are implementing a new Global Posture for 
defeating terrorism, deterring conflict, and bolstering the security of 
both established and nascent democratic states. This realignment will 
better position us to shape the future. This is well illustrated in 
U.S. European Command's reorientation of its forces from Cold War-era 
basing to an expeditionary forward presence that supports our friends 
and helps deny havens for our foes.
    In addition to transforming our conventional force posture, while 
maintaining a reliable nuclear force, we are shifting from our Cold War 
strategic deterrence to a New Triad with broadened focus on 
conventional long range strike. Prompt global conventional strike 
capabilities are required in the War on Terror as well as in future 
contingencies. In parallel with our efforts to develop a conventional 
long range strike capability, we are improving our missile defenses and 
national command capability. Your support for these efforts will turn 
our traditional triad into a strategic deterrence capability relevant 
to tomorrow's challenges.
    Finally, as we transform our warfighting forces, the Department 
will do the same for the acquisition and budget processes that provide 
material resources for our troops. Transforming the way capabilities 
are developed, fielded, and integrated enhances our capacity to execute 
a wide range of missions.
                      strengthen joint warfighting
    The U.S. Armed Forces' capacity to operate as an integrated joint 
team is one of America's chief advantages on the battlefield. By 
jointly employing our Armed Services we leverage their complementary 
capabilities as a team.
    We can and should go beyond our current level of Jointness. 
Strengthening our Joint Warfighting ability enables us to make strides 
forward in the War on Terrorism. It also accelerates transformation. To 
maximize our operational performance, we will transition from an 
interoperable force into an interdependent force. While doing this, we 
must maintain the expertise, culture, and traditions of the Services 
from which our military competence flows.
    Joint Professional Military Education of our military and civilian 
professionals provides the foundation of our force. We intend to better 
integrate our interagency and international partners in these 
successful education programs. In addition, our Joint Exercise Program 
provides valuable training for the Combatant Commanders' Joint and 
multi-national forces. At home, we are working with the Homeland 
Security Council and the Department of Homeland Security to establish a 
national security exercise program to help prepare senior leaders 
across the Federal government to confront crises more effectively.
    In strengthening Joint Warfighting, we continue to review, develop, 
and disseminate doctrine and operating concepts. The Joint Chiefs in 
consultation with the Combatant Commanders ensure that our doctrine and 
concepts provide a solid foundation for Warfighting. Those same 
concepts and doctrine also help shape the strategic guidance which 
drives operational execution.
    Our education and training, as well as our doctrine and operational 
concepts, are kept relevant by capturing lessons gained from 
experience. Our professional development and organizational agility is 
significantly enhanced by lessons observed from the War on Terrorism, 
and other operations, including disaster relief at home and abroad.
    As seen in deployments to the Asian Tsunami, Hurricane Katrina, and 
the Pakistan earthquake, our standing, rapidly deployable Joint Task 
Force headquarters dramatically improve our operational responsiveness. 
To enhance this capability, we will organize, man, train, and equip 
selected three-star and two-star Service headquarters to rapidly deploy 
as Joint Task Force headquarters.
    We are adapting our organizational structure to better exploit the 
intelligence we collect. The creation of Joint Intelligence Operations 
Centers at our Combatant Commands increases support to units in the 
field. In addition, the Joint Functional Component Command--
Intelligence, Surveillance and Reconnaissance, set up this year under 
the leadership of U.S. Strategic Command, deconflicts competing demands 
by coordinating the allocation of intelligence collection assets. These 
initiatives bring the analytical firepower of the Intelligence 
Community to bear for our troops on the ground, in the air, and on the 
sea.
    We are also harnessing technological developments to enable faster 
sharing of data among agencies, but we cannot rely solely upon 
technology. Intelligence collection, analysis, fusion, and 
dissemination depend upon our intelligence professionals. Human 
Intelligence is a vital enabler for collecting, understanding, and 
communicating information on threats and contingencies. Service 
programs for recruiting, training, and retaining key intelligence 
specialties have been refined to ensure we meet the increasing demand 
for intelligence personnel.
    We continue to examine how best to re-capitalize and invest in our 
Intelligence, Surveillance, and Reconnaissance capabilities. Sensor 
platforms that collect across multiple mediums are one approach. High 
altitude, long loiter unmanned aerial vehicles are another. Space based 
platforms should focus on surveillance capabilities that we cannot 
readily replicate elsewhere.
    In addition to benefiting our surveillance, space based platforms 
also play a central role in communications. Our deployed forces' 
strategic, operational, and tactical connectivity depends on the use of 
global, high bandwidth communications currently only available via 
satellites. As the gap between operational demands and military 
satellite communications capacity grows, we will continue to rely upon 
commercial vendors for the foreseeable future. We are also exploring 
alternatives to space-based communications.
    Networked ground, air, and maritime communications systems are the 
means with which the U.S. Armed Forces share information and work 
together as a team. New Joint acquisition strategies to replace 
Service-unique communications systems will advance our communications 
capacity across the electromagnetic spectrum. Common secure networks 
with allies will further increase coalition capability. In addition, 
the exponentially increasing importance of cyberspace requires that we 
increase our efforts to operate effectively both offensively and 
defensively throughout the Information Domain.
    In the realm of logistics, we are actively working to leverage our 
unmatched capabilities. The Joint Staff, the Services, the U.S. 
Transportation Command, and the Defense Logistics Agency work together 
to meet the personnel, equipment, and materiel needs of our Combatant 
Commanders. However, both the challenge of adapting to changing 
operational requirements and the demand to increase efficiencies 
require that we continue to enhance our logistics capabilities. Along 
these lines, we are working to improve unity of effort, domain-wide 
visibility, and rapid and precise logistics response. For example, as 
our distribution process owner, U.S. Transportation Command has 
strengthened our supply chains from factory to foxhole.
    Reconstituting the force presents real challenges. Our weapons 
systems and vehicles have experienced extensive use in Iraq and 
Afghanistan. Supplemental appropriations have helped us repair and 
refit during combat operations, nonetheless, we have more work ahead to 
ensure our forces remain combat-ready. Your support for resetting the 
future force is critical.
    As we reset, the combat power of our Total Force is being 
increased. By moving the Reserve Component from a strategic reserve to 
an operational reserve, we ensure it will be accessible, ready, and 
responsive. The Services have already rebalanced approximately 70,000 
positions within or between the Active and Reserve Components. We plan 
to rebalance an additional 55,000 military personnel by the end of the 
decade and also continue converting selected military positions to 
civilian billets. This revised Total Force structure will provide us 
with greater combat capability and leverage the complementary strengths 
of our Active, Reserve, and Civilian workforces.
  improve the quality of life of our service members and our families
    Taking care of our people is fundamental to the ethos of the 
American Armed Forces. Our men and women in uniform are our most 
precious resource. We must continue to ensure their welfare and that of 
the families who support them. The most advanced ship, aircraft, or 
weapon system is of limited value without motivated and well-trained 
people. Our experiences in Iraq and Afghanistan remind us that the 
Nation's security rests in the capable hands of the individual Soldier, 
Sailor, Airman, and Marine.
    Quality of life, of course, transcends material considerations. Our 
young men and women join the Armed Services to patriotically and 
selflessly serve something larger than themselves. They serve with 
pride, and their families willingly bear the burden of sacrifice, 
because they believe they make a difference.
    A clear indication that our personnel in uniform understand the 
importance of their service and appreciate the quality of life that we 
provide them is their decision to stay in our Armed Forces. Our 
retention levels are over one hundred percent of Service goals. To 
underscore the point that our men and women serve because they know 
they are making a difference, units that have deployed multiple times 
to combat have seen the highest rates of retention. We are also seeing 
success in our recruiting.
    We are grateful to the Administration and to the Congress for 
closing the pay gap between the private sector and the military, as 
well for vastly improving military housing and enabling our family 
members to enjoy a good standard of housing if they choose to live in 
the local community.
    To our families, protecting our troops in combat is the most 
important measure of quality of life. Since April 2004, all Defense 
Department personnel in Iraq, both military and civilian, have been 
provided Interceptor Body Armor. However, as the threat has changed, we 
have continually improved body armor to ensure our troops have the 
latest and the best possible protection. Our latest improvements defeat 
armor piercing rounds and include shoulder armor and side plates.
    In addition to body armor, armored vehicles are important to force 
protection. Thanks to your support we have had great success increasing 
production and fielding up-armored Humvees to protect our troops. 
Nearly all the approximately 40,000 tactical wheeled vehicles in the 
U.S. Central Command area of responsibility now have armor protection. 
We will continue to adapt as the threat evolves.
    Improvised Explosive Devices illustrate the asymmetric challenges 
we will face in the future. The Joint Improvised Explosive Device 
Defeat Organization spearheads our work to meet that threat. Bringing a 
senior commander's operational perspective to this effort, retired Army 
General. Montgomery Meigs, former commander of U.S. Army forces in 
Europe and NATO's peacekeeping force in Bosnia, is leading this fight. 
With the development and testing of technologies, tactics, techniques, 
and procedures we are learning to defeat the tactics of our adversaries 
and increasing the survivability of our Service members. Our 
transformational work with private industry to experiment with emerging 
technologies promises to break new ground in this vital endeavor. Thank 
you for helping us provide the best possible protective equipment for 
our troops.
    Taking care of our troops and their families also means taking care 
of our wounded. During World War II, Korea, Vietnam, and Desert Storm 
twenty-four to thirty percent of Americans injured in combat eventually 
died from their wounds. Today, due to tremendous improvements in our 
military medical system, nine of ten troops wounded in Iraq and 
Afghanistan survive. This dramatic improvement is the direct result of 
the hard work of our Forward Surgical Teams and Combat Support 
Hospitals, and the rapid evacuation of the seriously wounded to higher 
level care facilities in the United States. In Vietnam, it took forty-
five days on average to return wounded back to the United States. It 
now takes four days or less.
    Our remarkable medical professionals return to duty over half of 
our wounded in less than seventy-two hours. Advances in medicine, 
technology, and rehabilitation techniques enable us to provide much 
better care for those more seriously wounded. We make every attempt to 
bring willing Service members back to duty--or return them to society 
empowered to continue to make a difference. Congressional funding for 
this effort is greatly appreciated. In particular, thank you for your 
support for our two new Advanced Amputee Training Centers--at Walter 
Reed Army Medical Center, here in our Nation's capital, and Brooke Army 
Medical Center at Fort Sam Houston, Texas.
                               conclusion
    I testify before you today with tremendous pride in the bravery, 
sacrifice and performance of today's Armed Forces. Around the world, in 
every climate, and often far from home and family, America's men and 
women in uniform are making a difference. They do so willingly and 
unflinchingly--volunteers all. Their valor and heroism are awe 
inspiring and they serve this nation superbly, as have so many who have 
gone before them. It is an honor to serve alongside them.
    The past year saw the U.S. Armed Forces engaged in combat in Iraq 
and Afghanistan while we also provided humanitarian assistance to 
victims of the Asian tsunami, hurricanes along the U.S. gulf coast, and 
the earthquake in Pakistan. There are likely equal challenges and 
opportunities ahead for the U.S. Armed Forces. The imperatives to 
defend our homeland, defeat global terrorism, and transform for the 
future remain. With your continuing support, our military stands ready 
for the challenges and opportunities ahead.
    Thank you for your unwavering support in time of war.

    Senator Stevens. Let me resume my questioning, and then----
    Mr. Secretary, we understand that there has been a 
particular increase, a growth, in problems and in cost of the 
satellite programs. And there have been some suggested changes 
presented by Air Force Secretary Wynne and Under Secretary 
Sega. I don't--some of them are classified, but can you tell 
us, are these steps going to slow down this rate of growth 
and--do you believe the Department has that under control now?

                           SATELLITE PROGRAMS

    Secretary Rumsfeld. I would be reluctant to say that it's 
under control. My experience in the space business, both the 
intelligence side and the Air Force side, is that there has 
been, over time, a cost growth in those programs. I think there 
may be some reasons for that. One reason might be the fact 
that, for many years, as the Department of Defense and the 
intelligence community moved into these areas, they put in a 
factor--of some percentage--that reflected the reality, and 
their realization, that it was very difficult for them to 
calculate precisely when they were on the cutting edge and 
reaching into new areas. And, as a result, once that factor was 
taken out, whatever that percentage was, there tended to be a 
fairly regular pattern of cost growth or increases over what 
had been projected. Part of it is because it's new 
technologies. It is a difficult task. And I would be happy to 
take a look at some of the numbers and supply something for the 
record, unless, Tina, you want to comment.
    Ms. Jonas. Thank you. Mr. Chairman, one of the satellite 
systems that has had some difficulty has been the----
    Senator Stevens. Pull the mike towards you, please.
    Ms. Jonas [continuing]. Has been the SBIRS-High program. 
There are funds in the budget, of $700 million, for that, and I 
will tell you that Under Secretary Krieg and Under Secretary 
Cambone were just out this weekend and the other day on a 
review of that. So, I do know that, particularly Under 
Secretary Krieg, who is the head of the acquisition technology 
area, is--this is very much in his oversight. He's very 
attentive to this area. And he's quite active in it, sir.
    Senator Stevens. My last question, Mr. Secretary, would 
be--you mentioned the updating of the security forces and 
Iraq's own forces. We're told now that compared to September 
2005, when there were 2 brigades, 19 battalions, the Iraqi 
security forces now have two divisions, 14 brigades, and 57 
battalions. What is the goal? I mean, where do you think they 
would have to be, to be in control?

                            PROGRESS IN IRAQ

    Secretary Rumsfeld. The target that exists today is from 
the prior government, and it is to go up to a total of 325,000 
Iraqi security forces, when you take into account the ministry 
of defense and the ministry of interior forces, but do not 
include infrastructure protective services, or personal 
protective services for the people in the country. Whether the 
new government will stick with the 325,000 ceiling target that 
they have, I don't know. Until the minister of defense is 
appointed, which should be this week or next week, we won't 
have had the chance to talk with these new ministers and 
discuss that. But every single week and every month, the 
progress is going forward. And more real estate is being turned 
over, more bases are being turned over, more responsibilities 
are being turned over to the Iraqi security forces.
    I will say this. The new Prime Minister-designate has been 
very firm in all the negotiations thus far, that the minister 
of defense and the minister of interior must be a person who is 
competent, must be a person who is willing to govern from the 
center and not take a sectarian view to it.
    Senator Stevens. Thank you very much.
    For Members of the subcommittee, Senator Inouye and I have 
discussed, and we've decided on, a limit of 7 minutes per 
Senator. There are--we expect 9 to 10 Senators during this 
period. I hope that's agreeable.
    I'll yield to my colleague and co-chairman for 7 minutes.
    Senator Inouye. Thank you very much.
    Mr. Secretary, the lead story in every network news and 
major papers reported that the intelligence community was 
monitoring U.S. telephone service through what is known as data 
mining. Now, I don't wish to get into the specifics, but 
apparently it was authorized under the auspices of the Director 
of National Intelligence. But because of the rumors and 
allegations that seem to be spreading around, can you assure 
this subcommittee that the Department of Defense is not 
conducting any of its own domestic data mining activities, to 
collect the records of U.S. citizens, or monitoring phone 
calls?

                         DOMESTIC SURVEILLANCE

    Secretary Rumsfeld. Senator, let me respond this way. There 
are several things that have been discussed in this general 
category. One was the one you mentioned, which is the one that 
was authorized by the President, the National Security Agency 
(NSA), approved by the Attorney General, where Members of 
Congress were briefed from appropriate committees. And that is 
a separate set of activities which the administration believes 
are perfectly legal, and that appropriate consultation with 
Congress has taken place.
    There is a second category of activities. And I think they 
were called the ``Talon''----
    General Pace. Yes, sir.
    Secretary Rumsfeld [continuing]. Activity. And that 
involves the fact that the Department of Defense has the 
principal responsibility for providing force protection for our 
forces, in the United States and overseas. And, in that 
process, as they do observation of people observing military 
facilities, that could conceivably constitute a threat to those 
facilities, they gather information.
    The person who oversees that is Dr. Steve Cambone. When an 
issue came up about it, he immediately instigated an 
investigation of it, determined that some of the data should 
not have been retained, because it was not relevant, and, in 
one particular case, it had been some information that had been 
actually gathered by a different department, the Department of 
Homeland Security, sent to the Department of Defense, because 
it seemed to be relevant. It turns out it was not relevant, and 
he has instituted new procedures so that unnecessary 
information of that type is not retained in the files of the 
Department of Defense. However, we are clearly continuing to 
provide force protection to our forces here and elsewhere 
around the world, as we must.
    Senator Inouye. I realize this is a very difficult problem, 
but we'll have to work on it.
    Mr. Secretary, we have had many dozens of boards, blue 
ribbon panels, commissions, examine the issue of defense 
acquisition. However, it still takes a long time, about 20 
years, to produce an F-22 or V-22. Ships continue to have 
projected cost overruns. And we're still procuring, basically, 
for the Army, the same equipment it was purchasing in 1981. 
What can we do to help you to resolve this problem, or is that 
the way it's going to be done?

                          ACQUISITION PROCESS

    Secretary Rumsfeld. Well, I wish I had a good answer, 
Senator. As we've watched the acquisition process over 40, 50 
years, we've seen that it takes longer and longer to produce 
and manufacture and procure a weapons system. And we've seen 
that the costs tend to be greater than those projected. And all 
of that's been happening at a time when technologies have been, 
in fact, advancing at a much greater rate. Under the Moore's 
Law that computer power will double every 18 months, and 
technologies advance very rapidly, one would think that our 
capabilities and our technologies within the defense 
establishment would have to advance at a similar pace. Instead, 
just the opposite's happening.
    There have been so many studies--you could sink a 
battleship with the acquisition studies. We've got very 
talented people working on it. We've had talented, interested 
people in the Congress working with it. There have been outside 
organizations and studies. I wish I could say that we can be 
assured that that process will improve.
    I do think that one thing good has happened, and that's the 
concept of spiral development, where you reach in and bring 
forward some of the technologies that would otherwise have to 
be delayed until you had completed the entire acquisition of 
that weapons system. And, to the extent you bring forward those 
advances in technology, it mitigates some of the delays that 
will occur with respect to major weapons systems.
    Senator Inouye. Mr. Secretary, every year this subcommittee 
is told that the Defense Health Program is underfunded--we've 
heard this in hearings and private meetings--while the costs of 
providing healthcare to our servicemembers and their families 
continue to rise. Your budget assumes $735 million in savings 
from increased fees in the Defense Health Program. However, 
since the House and Senate Armed Services Committees restricted 
the Department from implementing these changes, how are you 
going to absorb these shortfalls?

                         DEFENSE HEALTH PROGRAM

    Secretary Rumsfeld. Well, we're hopeful that the Congress 
will not do that. As you point out, healthcare costs for the 
Department have at least doubled in the last 5 years, from $19 
billion to $38 billion, and the design of the system is such 
that there will not be constraints. It will continue to be 
unconstrained. And it will continue--if the healthcare costs in 
the society go up the way they have, it will continue to eat 
into our other needs.
    The Chairman of the Joint Chiefs of Staff, General Pace, 
and his colleagues on the Joint Chiefs, have spent a lot of 
time on this. And I'd like General Pace to comment, if I may.
    General Pace. Sir, we did look very hard at the healthcare 
program. The healthcare program that you all enacted in 1995 
for servicemembers was a very, very good program, and we want 
to protect the benefits of that. The premiums had not changed 
since 1995, and the recommendation of the Joint Chiefs was that 
we re-norm today's fees to the 1995 levels.
    Secretary Rumsfeld. But in the----
    Senator Inouye. Thank----
    Secretary Rumsfeld [continuing]. Event that Congress stays 
with where it looks like it's heading, we'll end up with at 
least $735 million that we'll have to cut out of force 
structure or modernization or some other portion of the budget, 
because we simply will have no choice. And we need the 
flexibility we requested, and we need the additional 
authorization we requested.
    Senator Inouye. Thank you, sir.
    Thank you, Mr. Chairman.
    Senator Stevens. Thank you.
    Out of deference to the ranking member of the full 
committee and the senior Member of the Senate, we'll yield, to 
Senator Byrd, 7 minutes.
    Senator Byrd. Mr. Chairman, today's hearing could not come 
at a more important time. In addition to having troops deployed 
in large numbers to Iraq and Afghanistan, the President 
recently proposed a new mission for our National Guard, to 
assist in securing our borders. I have been a strong voice on 
border security. I have offered nine amendments in the last 5 
years to train and deploy thousands of new border patrol 
agents. Regrettably, the administration opposed all of my 
amendments, asserting that the spending for border security was 
extraneous, unnecessary, spending that would expand the size of 
Government. If we had spent that money beginning in 2002, we 
would not today be calling on the National Guard. This latest 
proposal to send troops to the border should not distract from 
the administration's consistent record of opposing my 
amendments to tighten our borders.
    This hearing is also an opportunity to ask questions about 
what is going on in Iraq, the cost of the war, this spiraling 
out of control. We still don't have answers to the most basic 
questions about the war. How much more is this war going to 
cost? When is this mission really going to be accomplished? How 
much longer until our troops start coming home?
    The President said in his speech on Monday that the 
National Guard would be deployed to the border to perform 
missions like building fences, barricades, and roads. Wouldn't 
it make more sense to have the Department of Homeland Security 
contract this work to the private sector and allow the National 
Guard to preserve its readiness to respond to natural disasters 
and its other traditional missions? How about that, Mr. 
Secretary?

                            BORDER SECURITY

    Secretary Rumsfeld. Senator Byrd, the proposal, as I 
understand it, is for the Department of Homeland Security to, 
on a very accelerated basis, increase its size and capability 
to deal with the border security issues. On an interim basis--
up to 2 years, is my understanding--the President is proposing 
that the National Guard assist the Border Patrol, not in law 
enforcement, and not in arresting people, but doing the kinds 
of things you mentioned in your remarks. It seems to me that it 
will not, in any way, degrade or damage the National Guard's 
capabilities. We're talking about up to 6,000 the first year, 
and up to 3,000 the second year, out of a National Guard and 
Reserve component of 400,000 plus people.
    Second, the intention is for us not to activate the Guard 
and deploy them, as we do to Bosnia or Kosovo or Iraq or 
wherever, but, rather, to use their 2-week active duty for 
training, as we have been doing in support of the 
counternarcotics mission along the border for some time, and as 
we currently do, for example, with respect to hurricane damage 
and other activities. So, we believe the large portion of the 
individuals will be doing it on their active duty for training, 
and it will be beneficial to the Guard, because they'll be 
doing the very same things they would be doing if they were 
training their 2 weeks on an exercise basis, as opposed to 
doing something that the country really needs.
    Senator Byrd. Well, I don't think I've heard the answer to 
my question. Wouldn't it make more sense to have the Department 
of Homeland Security contract its work to the private sector 
and allow the National Guard to preserve its readiness to 
respond to natural disasters and its other traditional 
missions?
    Secretary Rumsfeld. I think that it does make sense for the 
Department of Homeland Security to use its own assets, as well 
as its contracting authorities, to do the things that it's 
appropriate for them to do. What the President's proposing is 
for the National Guard to provide some assistance with respect 
to some of those activities, on an interim basis, as the 
Department of Homeland Security ramps up to a greater level of 
capability.
    Senator Byrd. Do you intend, Mr. Secretary, to deploy 
National Guardsmen from West Virginia and other non-border 
States?
    Secretary Rumsfeld. Senator Byrd, the plan, as I understand 
it--we have General Blum here, who will be deeply involved in 
it--the plan is this, that first the four border States 
involved--California, Arizona, New Mexico, and Texas--would use 
their own National Guard people to the extent they have the 
skill sets needed to support the Border Patrol. Second, the 
National Guard Bureau would then advise the State Governors, 
who would be in charge of these forces, where in the country 
those skill sets that are still needed exist, and then they 
would work out arrangements with those States. And to the 
extent a State Governor did not want to--for example, if West 
Virginia decided they did not want to participate, they would 
not participate. To the extent States would like to, on a 
reciprocal basis, which States demonstrated they do like to do, 
and are willing to do--and thank goodness they were, in 
Katrina; we went from zero to 50,000 guardspeople down in that 
area in a week or two--then General Blum would direct those 
States to some other State to make that request. Is that 
roughly right?
    General Blum. Mr. Secretary, you have it exactly correct. 
Senator Byrd, this is building on a long-lasting, time-proven 
model. If you remember, right after 9/11, when the Guard was 
put into the airports of this Nation until Transportation 
Security Administration could recruit and train enough people 
to take over that niche. The Guard provided that capability for 
this Nation on an interim basis until the proper Federal agency 
could stand up, train, and equip their people. They then took 
over the mission, the Guard left that mission and went back to 
being--doing other things. We did the same thing on the 
Southwest border with the cargo handling inspection mission. 
The National Guard, for several years, was on the Southwest 
border inspecting cargo until we could get the Customs people 
to get their own cargo inspectors recruited, trained, and 
equipped. Then, the National Guard came off of that mission.
    It would be my intent to work the National Guard out of 
this mission as quickly as the Department of Homeland Security 
can stand up their capabilities. What Secretary Rumsfeld said 
about the partnership of the States with the Federal Government 
on this, and the autonomy and the control of the Governors of 
their National Guard forces will remain in affect.
    To me, sir, I think the National Guard is superbly ready to 
be the military force of choice for this interim mission, until 
the Department of Homeland Security can stand up and assume 
this mission on their own.
    Senator Byrd. General, my time is running out. Let me ask 
you, how do we know that these deployments won't detract from 
the ability of guardsmen to respond to emergencies in their 
home States?
    General Blum. Sir, that is a commitment that I pledge to 
the Secretary of Defense and the Governors of this Nation. We 
have a very robust force of 445,000 citizen soldiers and 
airmen. We will leverage the joint capabilities out of the Air 
National Guard. We have sufficient soldiers to do the overseas 
warfight, prepare for the upcoming hurricane season, and still 
have the forces that we need to respond for terrorism in this 
country, or a weapons of mass destruction (WMD) event. As the 
Secretary said, the high-end limit of 6,000, only represents a 
little less than 2 percent of our available force, and I think 
we can manage that. If any State has a particular issue or 
problem, and cannot send their forces, we have many, many other 
choices that we can make, sir.
    Senator Stevens. The Senator's time has expired. I'm sorry.
    Senator Byrd. Very well.
    Senator Stevens. Senator Bond is recognized for 7 minutes.
    Senator Bond. Thank you very much, Mr. Chairman.
    Mr. Secretary, I was encouraged to hear your comments about 
the coordination, the defense intelligence, and the rest of the 
intelligence community. And I believe it was indirectly 
referenced by--Chairman Pace. Clearly, we found, as a member of 
the Intelligence Committee, that we had a long way to go. And 
we look forward to that progress. We hope we can get Michael 
Hayden confirmed as head of the Central Intelligence Agency and 
move forward in that. I know that generally, your intelligence 
responsibilities are tactical; whereas, the other agencies have 
more strategic plans. That's not a hard-and-fast dichotomy, but 
it is one where there needs to be full communication both ways, 
in terms of both of those missions.
    Well, as you are well aware from questions and from our 
discussions, many of us on this committee and in the Senate are 
concerned that the Guard has been pushed around in policy and 
budget decisions within the Pentagon. And, Mr. Secretary, 
clearly we feel that needs to change. When the Guard's given a 
mission, the Guard's there to do the job, whether it's Iraq, 
Afghanistan, or Katrina. But too often when critical decisions 
were made that impacted them, the Guard leaders were shut out.
    As you know, 75 of us wrote to urge the Pentagon not to 
reduce the National Guard end strength, in December. But I have 
found it very troubling that the--there was--when the 
Quadrennial Defense Review came out, as you noted in your 
preface, quote, ``In the pages that followed, the Department's 
senior leadership sets out where the Department of Defense 
currently is and the direction we believe it needs to go in 
fulfilling our responsibilities to the American people. Now, in 
the fifth year of this global war, the ideas and proposals in 
this document are provided as a roadmap for change leading to 
victory,'' close quotes.
    Well, that sounds good, but we understand that the Guard 
was not at the discussion--not even at the discussion table. 
Now, we do know--I have been advised that, in this latest 
mission, assigned by the President to the Guard, the Guard was 
fully involved. And that's why the Guard has been able to 
adapt, and will use normal training times. And I think this is 
the way it should work.
    I also appreciate very much your encouraging words about 
the resourcing and support of the Guard. But I guess my first 
question would be, Can you explain how the Pentagon can develop 
a roadmap for change leading to victory with a key strategic 
partner in the total force, the National Guard, not even at 
the--in the discussions, or even at the discussion table?
    General Pace. Sir, may I respond----
    Senator Bond. General.
    General Pace [continuing]. Because I was at--I was at the 
table, as was General Blum.
    The process that you all have set out through recent 
legislation that allows the head of the National Guard Bureau 
to wear three stars, to have two-star officers on my staff, one 
representing the Guard, one representing the Reserves, worked 
extremely well during the QDR. During the QDR process, General 
Blum and my two general officers were at the table. So, it was 
not the QDR, sir, that got off track.
    What happened was, near the end of the QDR process, but 
separate from it, during a budget analysis that the Army did in 
November, that's when the Guard was not at the initial 
meetings, and that's when all this misinformation about how 
many troops, how much money, et cetera, took place. General 
Blum can speak for himself as to whether or not he believes he 
was properly represented. I was there at all those meetings. It 
is true that, came the time for making budget decisions, that 
the first meeting or two did not have enough representation. 
That was quickly corrected by the Army. But then what happened 
was, all the rumors that were out there, about x number of 
people being cut, et cetera, took on a life of their own.
    At the end of the day, the only thing that was ever 
presented to the Secretary of Defense from the QDR and from the 
budget process was that the authority would be for 350,000, 
that there were currently 333,000, and that, rather than put 
the money in the budget for the other 17,000, that that money 
would be reallocated inside the Army budget as the recruiting 
force was successful in getting those other 17,000, sir.
    Senator Bond. General, I'm sure we're going to hear from 
General Blum in a minute, but let me ask, When the--the way the 
military works when there are a bunch of--when there are four 
stars sitting at a table, do--does a three-star general have 
equal footing in that discussion?
    General Pace. Sir, you bet, if he's representing something 
as strong and as solid as the National Guard. Three stars, 
majors, whoever it is who's representing and has a knowledge 
base is what we're looking for. I'm not looking around the 
table counting stars; I'm looking around the table for the 
expertise.
    Senator Bond. General Blum, I guess I was misinformed. Have 
you been fully involved in all of the participations in all of 
these plans?
    General Blum. Sir, you have not been misinformed. What 
General Pace said is exactly accurate. I think it was a perfect 
record of what happened in the QDR, and then what didn't happen 
at the end of the QDR, that really was not QDR, it was really 
budget and programming decisions that had to be made. At that 
time, frankly--and I've told this subcommittee, and I've told 
others--that I was not consulted, at that particular time. The 
Secretary of the Army and the Chief of the Staff of Army have 
come in here and told this subcommittee, in their own words, 
that that part could have been done better. They are 
committed--and certainly this Secretary and this Chairman of 
the Joint Chiefs, are committed--to not repeating the long and 
sordid past that the Guard has had with its parent services. 
They're committed----
    Senator Bond. General----
    General Blum [continuing]. To a different path.
    Senator Bond [continuing]. I'm about to run out of time, 
excuse me, but I just wanted to point out that the Government 
Accountability Office, in talking about Katrina, said that poor 
planning and confusion about the military's role contributed to 
problems after the storm struck on August 29, and, without 
immediate attention, improvement is unlikely. And was the Guard 
not fully involved in the planning for the Guard's response? 
What happened?
    General Blum. Are you talking about for the hurricane 
response----
    Senator Bond. Katrina.
    General Blum [continuing]. To Katrina? I sat with the 
Chairman of the Joint Chiefs and the acting Secretary of 
Defense from the very beginning of that--it was Secretary 
England, because Secretary Rumsfeld was out of the country when 
Katrina first hit. They were fully aware of everything that the 
Guard was doing, total transparency. We, in fact, did have a 
very prominent voice at the table during that entire process, 
and it worked magnificently well as a result--that piece.
    Senator Bond. Thank you, Mr. Chairman.
    Senator Stevens. Yes.
    Senator Feinstein.
    Senator Feinstein. Thank you very much.
    Welcome, Mr. Secretary. One National Guard question, and 
then I'd like to talk about Iraq. According to recent testimony 
of the chief of the Border Patrol, the Border Patrol currently 
has 11,300 people. If I understand posse comitatus correctly, 
the Guard, under Federal control, is restricted to logistics 
and support services. If there are 11,300 Border Patrol 
officers, how many support and logistical jobs are there that 
Border Patrol can be freed up from?

                            BORDER SECURITY

    Secretary Rumsfeld. Senator, I'm told that an analysis is 
being completed, and is supposed to be submitted to the 
Department of Homeland Security this afternoon. And, at that 
point, they will come to the Department of Defense--and, 
particularly, General Blum--and say, ``Here are the things we 
would like to backfill or the additional things we would like 
done, some additional UAVs or some additional technical support 
or language support or construction support.'' And then, 
there'll be a matching of those capabilities.
    Is that right?
    General Blum. I think that's a very accurate description, 
Mr. Secretary--Senator.
    Senator Feinstein. Yeah. Because one of my big concerns is, 
we have doubled the Guard since 1995. Apprehensions at the 
border have gone down 31 percent. Apprehensions inland have 
gone down 36 percent. And the flow has continued. Something is 
problematic, in my view. But if you have 11,000 active Border 
Patrol--I've been trying to find out how many logistical and 
support positions there are, but I suspect they should be far 
below 6,000. And so, I will just leave you with that.
    Secretary Rumsfeld. Sure. Yeah, I don't know, but I think 
you're probably correct.
    I mean, I'll give you one example of something that we can 
do. There is a training range in Arizona that has a 37-mile 
border with Mexico. And in the last year, something like 15 
percent of the training time, down near Yuma, we lost, because 
of immigrants coming across that border, and it was too 
dangerous to use it. There have been people who have died out 
there from not enough water or food, who were misled as to the 
distances they'd have to go. So, from a humanitarian 
standpoint, from a training standpoint, and from an illegal 
immigration standpoint, we could go to work, for example, and 
do the kind of fencing, that's been done in other parts of that 
border, in our training range, and advantage everybody by doing 
it.
    Now, that is not something that would be replacing 
something that the Border Patrol is currently doing, but it 
would be a very useful thing to do----
    Senator Feinstein. Right.
    Secretary Rumsfeld [continuing]. We believe, or at least 
we're looking----
    Senator Feinstein. Right.
    Secretary Rumsfeld [continuing]. At it.
    Senator Feinstein. Thank you. I understand.
    Let's turn to Iraq for a minute. As I understand the 
situation--and I know you'll correct me if I'm wrong--the Prime 
Minister has until May 21 to appoint the Minister of Defense. 
They are wrangling. If he doesn't meet that time deadline, my 
understanding of the constitution is that the Prime Minister is 
replaced. Is that your understanding?

                       IRAQI GOVERNMENT FORMATION

    Secretary Rumsfeld. My understanding, as of this morning, 
is that he has made a decision with respect to the Minister of 
Defense, that there are two open ministries. I think they're--
one is Ministry of Interior, and the other may be finance or 
oil--do you recall?
    General Pace. Yes, sir. That's finance, sir.
    Secretary Rumsfeld.--Finance----
    General Pace. Yes, sir.
    Secretary Rumsfeld [continuing]. That are still being 
debated, and that the hope or expectation is that, by the 
deadline, they will make an announcement.
    Senator Feinstein. Good.
    It's my understanding that both you and General Pace have 
expressed a desire to see a reduction of United States troops 
in Iraq from our current level, but you've stated this can't 
take place until a permanent cabinet is formed and that any 
downsizing would be based on the security situation on the 
ground and the readiness of Iraqi security forces. Could you 
provide this subcommittee with your personal assessment of 
where things stand with respect to downsizing the American 
troop presence, in terms of the security situation, the 
training of Iraqi security forces, and political developments? 
I'd be interested in what must happen, in your view, before we 
begin a major downsizing of the American troop presence in 
Iraq.
    Secretary Rumsfeld. Senator, we supply the Congress, I 
think, every quarter, a report that responds to that, in the 
broad sense. And it would reflect, I'm sure--General Pace's 
staff and I both go over it----
    General Pace. We do.
    Secretary Rumsfeld [continuing]. And it reflects our best 
judgment at that moment.
    If General Casey were here, he would say that there must be 
good--reasonable security, there must be a reasonable economic 
opportunity; and, to have either one, you've got to have a 
unity government. So, you're not going to get the security 
that's needed, in my--in his view, unless the new government 
engages the country, has a reconciliation process, and proceeds 
in demonstrating to the Iraqi people that they have a stake in 
the success of that government.
    Now, that's general. The second key thing, obviously, is, 
how many Iraqi security forces are there going to be, and how 
good are they, and how fast can they take over that 
responsibility? And we know what that trajectory is.
    Senator Feinstein. I think the point is--of many of us--and 
let me just speak for myself--is that we have reached a point, 
in Iraq, of major sectarian violence. If I had to take a guess, 
I am very worried about Muqtada al-Sadr, the Medhi militia, 
what's happening in the development. And the American presence 
becomes a kind of scapegoat for the militias to carry out 
operations against other civilians.
    I am really concerned about our people being caught in the 
middle of this. And it seems to me that the time is upon us to 
transition that mission and begin to confine our presence to 
logistics and support, and move our people out.
    Secretary Rumsfeld. Senator, we--I don't disagree with the 
construct that you've presented. We ought to be worried about 
Sadr and his militia. Armed militias, in a country of 
democracy, are inconsistent with the success of that democracy. 
And the new government, I will say, the Prime Minister-
designate, one of the first things he did was say, ``We're 
going to have to address the militia issue publicly.'' Second 
thing he did is, he went down and saw Sistani, the leading 
cleric in the country, and got him to say that the issue of 
militias has to be addressed. So, there's broad agreement with 
that point.
    The second thing I agree with is that, you're quite right, 
General Abizaid and General Casey wrestle every day with the 
tension that you described, the tension between having too few 
forces so that the political process can't go forward, and 
having so many forces and being so intrusive that you 
contribute to the insurgency and feed the argument that we're 
the problem. And so, it's an art, not a science. They're 
terribly competent individuals, and it varies from different 
section of the country to different section. It also, as you 
suggested, varies depending on the role that you're playing. If 
you're more in the background, less patrols, more in support, 
in the combat support, combat service support, quick-reaction 
forces, Medicare--medical evacuation capability, those kinds of 
things are less intrusive than patrols.
    And so, you have exactly described what General Abizaid and 
General Casey are wrestling with.
    General Pace. And, Senator, the turnover process continues. 
We had 110 facilities the beginning of this year. We're down 
to--we turned over 34, or closed--turned over or closed a total 
of 34, down to 76. And for the rest of this year we're going to 
close probably another 20 plus, or turn over. The Iraqi 
divisions, there are 10. They are building--two of them 
currently are in the lead. The other eight are building 
capacity to go in the lead. Their brigades are over 30. Fifteen 
of those brigades are in the lead, meaning they have territory 
they control. They are building to 120 infantry battalions, of 
which currently--65 currently are in the lead and on the 
ground.
    So, as this political process continues, so does the 
turnover responsibility for more and more of the territory of 
the country, sir--ma'am.
    Senator Feinstein. Thank you.
    I've exceeded my time. Thank you, Mr. Chairman.
    Senator Stevens. Thank you.
    Senator Shelby.
    Senator Shelby. Thank you, sir.
    Mr. Secretary, the Air Force currently has an aging fleet 
of refueling tankers that are already experiencing problems. 
Given the age, the reliability issues, and maintenance 
challenges facing the current tanker fleet, the timely 
replacement of the KC-135s should be a priority of the 
Department of Defense. Could you give us your thoughts on how 
soon the Department is going to execute the new program? And 
how are we going to recapitalize the tanker fleet before the 
age issue and the recapitalization issue becomes too critical?

                        TANKER RECAPITALIZATION

    Secretary Rumsfeld. Senator, the last I heard, the request 
for information is out, the draft request for proposal is 
expected to be out in September of this year. And if things 
work out properly, it should end up with a formal request for 
proposals by January 2007.
    Senator Shelby. Isn't this very important to the Air Force?
    Secretary Rumsfeld. It is. And the Air Force clearly is 
interested in it, and addressing it. If that timeframe persists 
and doesn't get moved to the right, that would suggest a 
contract award in sometime late of 2007--fiscal year 2007, so 
it would be, you know, in the third quarter of next year.
    Senator Shelby. But it's going to happen, is it not? Is 
that what you're saying?
    Secretary Rumsfeld. The Air Force is determined that it 
happen, and that it be done in a proper and orderly way.
    Senator Shelby. It is a priority for you, Secretary of 
Defense?
    Secretary Rumsfeld. It is.
    Senator Shelby. One of your priorities?
    Secretary Rumsfeld. Sure. I mean, if you think of what we 
have to do in the world, we simply----
    Senator Shelby. Absolutely.
    Secretary Rumsfeld [continuing]. Have to have a competent, 
capable, ready tanker fleet. And we have to get about the task, 
over time, of seeing that the aging of that fleet is arrested.
    General Pace. Sir, and there's lead money in the 2007 
request for the first three aircraft that will allow us to, in 
fact, get on about building the airplanes, if, in fact, the 
contract is awarded.
    Senator Shelby. Thank you, General.
    Mr. Secretary, the joint cargo aircraft, just the subject, 
there's--we've been--a lot of us have been closely following 
the Joint Air--Cargo Aircraft Program. And a lot of us are 
concerned that the recent decision to transition the Army 
future cargo aircraft into a joint Army/Air Force program is 
delaying the Army's needed replacement of the organic fixed-
wing cargo lift that it needs. There's some discussion that 
it's the Air Force's lack of urgency here that led to the 
Senate Armed Services Committee, as you know, recently cutting 
the authorization for the joint cargo aircraft in the 2007 
budget. Ironically, all the money was taken from the Army's 
account there. Do you support, Mr. Secretary, the urgency of 
the Army's organic airlift requirement and the need to fully 
fund the joint aircraft--joint cargo aircraft in 2007?
    General Pace, you want to address that?
    General Pace. Senator, thank you. I am not knowledgeable 
about a problem with the Army's joint cargo aircraft.
    Senator Shelby. Okay.
    General Pace. All of our focus has been on getting the Army 
moved overseas, and that focus has been on the C-17 and the C-5 
fleet.
    Senator Shelby. Absolutely.
    General Pace. A very robust mobility capability study we've 
just completed determined that 180 C-17s and 112 C-5s was the 
right mix and that would allow us to do our business. I will 
have to get back to you, sir, with any particular problem at a 
lower level than that.
    Senator Shelby. Of course, we're interested in the Sherpa's 
replacement, you know, in a timely fashion----
    General Pace. Aye, sir.
    Senator Shelby [continuing]. As you know. Can you get back 
with me on that?
    General Pace. I will. I don't have the facts in my head.
    Senator Shelby. Okay.
    [The information follows:]

    The Administration's fiscal year 2007 budget request 
included $109.2 million in Aircraft Procurement, Army for the 
procurement of three Future Cargo Aircraft. I support this 
request. If funds are not made available for this request, it 
will delay Army platform fielding and replacement of their 
existing fixed wing logistics aircraft. The Army's Future Cargo 
Aircraft fills a Joint Requirements Oversight Council (JROC) 
validated capability gap and has Defense Acquisition Board 
(DAB) level endorsement as part of the Army's Aviation 
Modernization Program.

    Senator Shelby. The joint common missile. We've talked 
about that before here, and, of course, there was a decision in 
2004, a Presidential budget decision to terminate that, 
although a lot of people believe it's a remarkably healthy, 
low-risk program. It was on schedule, on budget, successfully 
demonstrating important new capabilities for the warfighter. 
Can you give us a status report, General Pace or Mr. Secretary, 
on where the joint common missile stands, in terms of cost, 
performance, and schedule? What's going on here?
    General Pace. Sir, the joint common missile was a item of 
great discussion during the QDR. It was fed by the Joint 
Requirements Oversight Committee's deliberations, looked at the 
Nation's total needs for precision weapons. The Hellfire II, 
the laser-guided bombs, the joint directed TAC munitions all 
were assessed as providing for this Nation, the amount of 
precision munitions needed for the perceived warfights. 
Therefore, the munition that you're speaking about was 
recommended to be taken out of the budget so we could apply 
that $3 billion plus to other programs that were more needed 
than it, sir.
    Senator Shelby. What happened to the $30 million that was 
appropriated by this subcommittee last year that the Office of 
Secretary of Defense (OSD) withheld, do you know, Mr. 
Secretary? Can you get back with us on that?
    Secretary Rumsfeld. I don't have that in my head. Do you, 
Tina?
    Ms. Jonas. Mr. Shelby, we will check, for the record, for 
you. My understanding, at this moment, is that it has not yet 
been spent, but we'll certainly----
    Senator Shelby. Yeah, it's----
    Ms. Jonas [continuing]. Will check, for the record, sir.
    Senator Shelby [continuing]. Been withheld, and we just 
wondered why it had not been spent.
    Ms. Jonas. Yes, sir.
    Senator Shelby. Will you get back with me on that?
    Ms. Jonas. We certainly will, sir.
    Senator Shelby. Yeah. Thank you.
    Thank you, Mr. Chairman.
    Senator Stevens. Yes, sir.
    [The information follows:]

    The $30 million appropriated for Joint Common Missile in 
fiscal year 2006 is currently being withheld by the Office of 
the Secretary of Defense, as this weapon is a terminated 
program. Congressional report language encourages the 
Department to reevaluate this decision, and the Joint 
Requirements Oversight Council is studying the requirements for 
this type of close air support.

    Senator Stevens. Senator Leahy.
    Senator Leahy. Thank you, Mr. Chairman.
    Mr. Secretary and General Pace, always good to see you. 
Always good to see all of you--General Blum. Some of these 
questions, I'd like to follow up.
    I listened to Senator Feinstein's question on Iraq. I get 
increasingly worried about that, that the--we just seem to have 
a policy of ``more of the same.'' The struggle to form a 
government goes on interminably. The President says there's a 
workable strategy in place that will allow for a significant 
troop withdrawal this year. But, since he said that, we've seen 
a huge rise in ethnic violence, the proliferation of militias 
that seem out of control, certainly a lengthening of the 
American casualty roster. Beyond that, it's anybody's guess how 
many Iraqis have been killed or injured.
    American taxpayers get the bill of over $1 billion a week. 
The meter is just running on and on. Former Senator from 
Illinois, Senator Dirksen, once said, ``That kind of money adds 
up.'' Now we're planning a $1 billion Embassy, the most 
expensive Embassy any country has ever built anywhere. And 
we're planning that at the same time we're saying we're not 
there to control anything. And then we build bases that are 
going to be the envy of military in most countries. Are we 
still going to see a significant troop withdrawal this year?
    Secretary Rumsfeld. Senator----
    Senator Leahy. I know that's--I know that question 
surprised you, Mr. Secretary.

                            TROOP WITHDRAWAL

    Secretary Rumsfeld. No, indeed, it didn't. Needless to say, 
we would hope so. And, as the President said, he will wait to 
receive the recommendations from General Casey and General 
Abizaid and General Pace as to what they believe the conditions 
on the ground will permit. And as you continue to go up in 
Iraqi security forces, both in numbers and equipment and 
experience, we are being successful in transferring more and 
more responsibility to them, which, if they get a government, a 
unity government, and if the government is persuasive to the 
people of Iraq that they should have a stake in its success, 
then we ought to be able to make a reduction.
    Senator Leahy. Well, let me ask you this----
    Secretary Rumsfeld. Let me just make a comment, though, on 
your ``interminable''--you said it was ``interminable,'' what 
was going on.
    Senator Leahy. Well, let me----
    Secretary Rumsfeld. Let me----
    Senator Leahy [continuing]. Let me----
    Secretary Rumsfeld. Let me just quickly respond. We go from 
election, November 4--this is a country with 250 years 
experience with democracy, and we go from an election, November 
4, and then it goes December, January, and the president's 
sworn in, and then the cabinet gets sworn in, in February and 
March, after confirmation.
    Senator Leahy. Mr. Secretary----
    Secretary Rumsfeld. I mean, it's not much difference from--
--
    Senator Leahy. Mr. Secretary, we're----
    Secretary Rumsfeld [continuing]. What we're doing, but 
they've never done it before.
    Senator Leahy. Mr. Secretary, we're not----
    Secretary Rumsfeld. They're breaking new ground.
    Senator Leahy [continuing]. We're not having sectarian 
violence in the streets all the time----
    Secretary Rumsfeld. True.
    Senator Leahy [continuing]. Either. And we have spent 
billions of dollars. We have rosy scenarios all the time. Is 
there any significant section of Iraq that the Iraqis could 
control the law and order with civil government, with the--with 
necessary services, without U.S. involvement?
    General Pace. Sir, there are 14 of the 18 provinces right 
now that are essentially calm, secure----
    Senator Leahy. So, we can withdraw from those 14.
    General Pace. To complete my answer to your question, sir, 
we are still in the process of assisting their armed forces in 
getting these skills they need. We have the battalions coming 
online--as I mentioned, 120 that are being built, 65 in the 
lead. There are still the logistics and command and control 
parts of their army that need to be built, for them to be able 
to sustain themselves completely. So, in those areas where they 
are currently in the lead on the ground, we are assisting them 
with logistics and command and control, and, over time, we are 
building that capacity for them, as well.
    Senator Leahy. General, in those 14, are there any one of 
them that the U.S. forces can withdraw completely in the next 3 
months?
    General Pace. No, sir.
    Senator Leahy. Thank you.
    It's been almost--Mr. Secretary, it's been almost like 
clockwork since September 11 that the National Guard is called 
up to carry out homeland security or disaster relief functions. 
And I think both you and I would join in praise of the way they 
have performed. They have been used to increase security at the 
Nation's airports, here at the Capitol after 9/11, and when I 
came to work, and thousands of others proudly came to work in 
this Capitol Building, just as thousands went proudly to work 
in the Pentagon, which was struck, we saw the Guard out here. 
They were at the Olympics, on the border, and then, after the 
Department of Homeland Security failed miserably after Katrina, 
they responded there and serving under the title 32 status on 
control of the Nation's Government.
    Now, I think it's the right way to call out the Guard in 
the United States, but it requires sensitivity to the needs of 
the State, adequate communication with the Nation's Governors. 
You've been asked this question by Senator Bond and others, and 
you and I have discussed this privately. It really seems, to 
me, that, with the Joint Chiefs of Staff, they--the highest 
advisory body to you and the Joint Chiefs, that you would be 
well served to have the chief of the Guard Bureau on this 
board. I referenced, when you and I were coming back on a 
flight from New York, that, when I raised that, there was an 
enormous amount of turbulence inside the airplane. It was very 
smooth flying outside.
    Have you had any change in your thought after you heard 
from Senator Bond, myself, and probably about 40 other 
Senators?

                             NATIONAL GUARD

    Secretary Rumsfeld. Senator Leahy, I have reflected on your 
recommendation in that regard, and I've talked to Pete Pace and 
other members of the Chiefs----
    Senator Leahy. I know you reflect on a lot I say. Go ahead.
    Secretary Rumsfeld [continuing]. And I guess the short 
answer is, no, I've not found myself migrating over to your 
viewpoint on that particular issue. I think the way we look at 
it is that the Army includes the total Army; and the Air Force, 
the total Air Force; and that to begin to segment them inside 
the Joint Chiefs of Staff is not a good idea. And the Guard and 
the Reserves have to be well represented in the Joint Chiefs, 
and we have to assure that we have those linkages that work and 
are effective. But to begin taking segments of the Army or the 
Navy, the Air Force or the marines, and add them in, I think, 
is not the best idea.
    Pete?
    General Pace. Sir, we worked real hard for the last 20 
years, under the leadership of the Goldwater-Nichols 
legislation, to kluge together a joint force. And we have one 
Army, one Navy, one Air Force, one Marine Corps, and they are 
working extremely well together now. To divide our Air Force, 
to divide our Army by having an additional member of the Joint 
Chiefs, who represents a segment of both of those services, 
would do a disservice to the country. That does not mean that 
we do not need to have a robust representation of the Guard. 
And this committee and the Congress, in recent legislation, 
increased the rank, to three stars, of Lieutenant General 
Blum's position, gave the chairman two two-star positions, both 
of which are filled by quality officers. I recommend, from the 
standpoint of the rank structure, that we look to the 
commission that Mr. Punaro is heading, to take a look at the 
entire Guard and Reserve structure, see what responsibilities 
they have, see how many stars are appropriate, and to see how 
that might impact the other Reserve and Guard forces. But as 
far as being a member of the Joint Chiefs, sir, I would find 
that disruptive, not helpful.
    Senator Leahy. Thank you, Mr. Chairman. My time is up. 
Obviously, I'll follow up more on this, because I still have 
the concerns about homeland security.
    Senator Stevens. Thank you.
    Senator McConnell, you're recognized for 7 minutes.
    Senator McConnell. Mr. Secretary, it strikes me that 
Members of Congress, and, to some extent, the American people, 
are having a hard time measuring progress in what has been 
described as the ``long war.''
    Let me suggest that there are at least two ways that I 
think we can measure progress. Number one, we haven't been 
attacked again here at home since 9/11. And, I want to commend 
you and your Department for that, because I think the only 
reason that we haven't been attacked again is, we've been on 
offense, going after the people who would do us harm, where 
they tend to hang out. Another way to measure progress, it 
strikes me, is the reduction in the number of states that 
sponsor terrorism. Qaddafi had an epiphany after witnessing 
what happened in Iraq, and has been busily trying to normalize 
his relationship with us. You've got an emerging democracy in 
Afghanistan, an emerging democracy in Iraq, which we've all 
been talking about here this morning.
    It seems to me that's clearly progress, both in terms of 
the absence of additional attacks here at home, which we all 
expected, even later in 2001, not to mention over the next 5 
years, and the reduction in the number of states that sponsor 
terrorism.
    I've heard it suggested, Mr. Secretary, that somehow the 
Middle East is in worst shape as a result of an emerging 
democracy in Iraq. And I'd be interested in your views about 
how a process of democratization in Iraq could possibly make 
things worse in the neighborhood. And, second, I'd like for you 
to touch on the Iranian influence in Iraq these days, and the 
extent to which that may be complicating our moving forward 
there.
    Secretary Rumsfeld. I missed that--what the word was, the--
about--the second part of your question? I didn't----
    Senator McConnell. Well----
    Secretary Rumsfeld [continuing]. Understand the word.
    Senator McConnell I'd like your response to the suggestion 
that somehow the Middle East is worse off as a result of----
    Secretary Rumsfeld. Right.
    Senator McConnell [continuing]. Of an emerging democracy in 
Iraq. And, rather than take up your time by asking another 
question, I went ahead and asked my follow-up question. I'm 
interested in your observations about the extent to which Iran 
is exacerbating the problem in Iraq.

                           DEMOCRACY IN IRAQ

    Secretary Rumsfeld. Yes, sir. I think one way to look at 
the first part of your question is to picture Iraq today, were 
we to withdraw and the democratic government to fail, and the 
Zarqawi/al Qaeda people take over that country and turn it into 
the kind of safe haven that they had in Afghanistan. These are 
the people who behead people. These are the people that are 
funding terrorist attacks in other countries. These are the 
people who would take that country, and, therefore, that part 
of the world, back to the dark ages. They want to reestablish a 
caliphate. And the dire consequences for the people of Iraq, 
the 25 million people--12 million of them went out and voted 
for their constitution in their democratic election. It is a 
country that's big, it's important, it has oil, it has water, 
it has history, and for it to be turned over to extremists 
would be a terrible thing for that part of the world and for 
the free world, and for free people everywhere, in my view.
    I also would say that if people are concerned about Iran, 
the thought of having the Iraqi constitution and the sovereign 
elected government fail there would be the best thing in the 
world, from Iran's standpoint. And if people are anxious to see 
Iran successful in the path they're on, it strikes me that 
tossing in the towel on Iraq would be a boost for them.
    The second part of your question is hard for me to answer. 
We know that Iran has access across that border. It's historic. 
Shi'a religious sites are in Iraq, and they've been going back 
and forth on pilgrimages for decades.
    We know that we're finding Iranian-manufactured weapons 
inside of Iraq. We have information that they are engaged in 
funding segments of that population to try to advantage 
themselves. Their position clearly cannot be characterized as 
benign or disinterested. I would characterize it as unhelpful. 
The problem we've got is, unless you catch somebody from Iran, 
from the Government of Iran, physically bringing a weapon into 
Iraq, and you can tie a string between the two, you can't 
assert that it necessarily was government sponsored.
    Pete, do you want to----
    General Pace. Sir, I think you hit it on the nail, sir. And 
there's more that we could talk about in closed session, sir, 
but I think that's about all we should say publicly.
    Senator McConnell. I was not here at the beginning of the 
hearing, and I apologize if you've already gotten this 
question, but I'm curious, since I think we would all agree, 
everyone in this room, that the quickest ticket out of Iraq is 
the adequacy of the Iraqi military and police. Has someone 
given an update on where they stand these days? If not, I would 
like to hear that.
    General Pace. Sir, we gave a partial answer to that 
question. I can go down it very quickly.
    Senator McConnell. All right.
    General Pace. We stand, today, at 254,000 total Iraqi 
security forces, en route to 325,000. Inside the Iraqi army, 
there are 10 divisions, two of which currently control 
territory on their own. There are over 30 brigades, 15 of which 
currently control Iraqi territory on their own. There are 120 
battalions, 65 of which currently control property on their 
own. In Baghdad, for example, just a little bit over half the 
city now is controlled by Iraqi army and Iraqi police. The 
Iraqi army is ahead of the Iraqi police with regard to its 
capacity to stand on its own, because we started with the Iraqi 
police a little bit later. But the Iraqi police are undergoing 
the exact same training process, embedded trainers, that we 
have with the Iraqi army. We are now adding to the Iraqi 
police, so they are coming along. And the process is on track 
so that by the end of this year, the vast majority, 95 percent 
plus, of the Iraqi army will be manned, trained, and equipped 
and in various stages of capacity, and then later on in 2007, 
the police will be complete.
    Secretary Rumsfeld. I would only add this thought, which I 
believe I mentioned earlier. The success of the Iraqi security 
forces is impressive. They're making excellent progress. The 
reality is that unless you have a government formed, and with 
strong, competent ministers that are going to govern in a 
nonsectarian manner in those key security ministries, the 
future of the Iraqi security forces can't be counted on, 
because they require a government structure above them, and 
ministries above them, that are capable and competent, so that 
there are chains of command and civilian control and linkages 
back to the government. And that's the process that's very 
close to happening.
    Senator McConnell. That's what we expect to happen by 
Saturday, I gather. We hope.
    Senator Stevens. The Senator's time has expired.
    Senator McConnell. Thank you, Mr. Secretary.
    Senator Stevens. Senator Durbin is recognized for 7 
minutes.
    Senator Durbin. Thank you, Mr. Chairman. Thank you, Mr. 
Secretary and General Pace.
    Mr. Secretary, I've reviewed your testimony before this 
subcommittee since the invasion of Iraq, and it has been 
consistent. It consistently tells us the Iraqi forces are 
better than ever, the time is coming very soon when they will 
be ready to stand and fight for their own country. And yet, as 
the years have gone by, despite your testimony, we still have 
135,000 or more American soldiers with their lives on the line. 
We've lost 2,450 of our best and bravest. Over 20,000 have 
suffered serious, life-changing injuries and come home. And our 
Senate has spoken, that this is to be a year of significant 
transition. I have heard nothing in your testimony, as I've 
listened to it, as it's been related to me, to suggest that you 
have plans to make this a year for significant transition in 
Iraq. Can you tell us that, before the end of this calendar 
year, a significant number of American troops will be 
redeployed out of harm's way in Iraq?

                            TROOP WITHDRAWAL

    Secretary Rumsfeld. No. No one can. It's obviously our 
desire, and the desire of the troops, and the desire of the 
Iraqi people. No one wants foreign forces in their country. The 
President is the one who will make the decision in the 
executive branch of the Government. He has said that he's 
responsive to General Abizaid and General Casey and General 
Pace's recommendations, and that their recommendations are 
going to be based on conditions on the ground. We've gone from 
a high of 160,000. Today we're at about 133,000, I think. We 
have every hope that we'll be able to continue making 
reductions as the Iraqi security forces continue to take over 
responsibility, as General Pace has described they're currently 
doing.
    Senator Durbin. Mr. Secretary, I will believe the 
statements about the viability and strength of the Iraqi 
security forces when the first Iraqi soldier stands up and 
replaces an American soldier. And from what I'm hearing from 
you, it won't happen this year.
    Secretary Rumsfeld. Well, that's just not correct. I don't 
know quite what you mean by ``replaces an American soldier,'' 
but they can--they had the principal responsibility for 
security for the elections, for the constitutional referendum. 
They----
    Senator Durbin. Mr. Secretary, the American people want to 
know when our forces, currently in harm's way in Iraq, are 
going to be out of harm's way, redeployed to a safe location 
outside of Iraq. And you've said, ``No, it won't happen this 
year.''
    Secretary Rumsfeld. I did not. You're not listening 
carefully. I did not say it will not happen----
    Senator Durbin. Well, speak----
    Secretary Rumsfeld [continuing]. This year. I----
    Senator Durbin [continuing]. And I will listen carefully.
    Secretary Rumsfeld. I did not say it will not happen this 
year. I said I hoped it happens this year, but I can't promise 
it.
    Senator Durbin. Well, when we talk about significant 
transition, I'm afraid I don't have any evidence of it yet, in 
terms of----
    Secretary Rumsfeld. Well, there's been----
    Senator Durbin [continuing]. Our policy.
    Secretary Rumsfeld [continuing]. A lot of transition, 
Senator Durbin. And--maybe you wouldn't characterize it that 
way, but clearly there's been a shift in weight within the 
roles that the coalition forces are playing in Iraq away from 
patrolling and over toward the training and the equipping and 
the mentoring and the embedded process within, now, not just 
the ministry of defense forces, but also the ministry of 
interior forces. That's--that is a shift. At least I would 
characterize it. Wouldn't you, General?
    General Pace. Sir, there's a continuing process here. We 
started the beginning of this calendar year with almost 160,000 
troops on the ground. We're down to about 133,000, as the 
Secretary pointed out. We went from almost 20 brigades during 
the turnover and the election security, down to 15 brigades 
now. I----
    Senator Durbin. But, General, isn't it true that we ramped 
up the number of forces for the election?
    General Pace. We did, sir. And we're----
    Senator Durbin. And then brought them----
    General Pace [continuing]. And we're----
    Senator Durbin [continuing]. Back down after the election.
    General Pace. We ramped up from 18 to 20, and then we went 
back down to 17, and then we went down to 15, where we are 
right now. And about 2 weeks ago, General Casey and General 
Abizaid recommended to the Joint Chiefs, and we recommended to 
the Secretary, that we not move the brigade that's currently 
prepared to deploy from Germany into Iraq right now until we 
take a look at the current situation on the ground, work with 
the new government, because it appears that the Iraqi armed 
forces, having built as much as they have, will be able to take 
over more. So, they--the Iraqi armed forces are taking over 
more and more territory. And I can show you a map after--when 
we're done, sir, that shows you, basically in two colors, how 
much of the country, which is about 25 percent right now, has 
been--is under control of Iraqi forces. And about half of 
Baghdad is in that territory, sir.
    Senator Durbin. Thank you, General.
    Secretary Rumsfeld. Could I say one----
    Senator Durbin. Mr. Secretary, I'd--sorry, I have 2\1/2\ 
minutes, and there's one other issue I'd like to touch on, and 
that relates to the McCain torture amendment, which passed the 
Senate, 90 to 9. We were hoping that there would be a rewrite 
of the Army Field Manual consistent with the McCain amendment. 
And it appears that there have been some problems. I don't 
understand why. I want to ask you basically this. Do you 
believe that we should be working toward a consistent, uniform 
standard when it comes to the treatment, detention, and 
interrogation of prisoners? And do you believe, as the original 
Army Field Manual said, that every interrogation technique 
authorized should be--would be considered lawful--let me 
restate that. Can you assure us that every interrogation 
technique authorized by the new Field Manual would be 
considered lawful by the Pentagon if it was used on captured 
American servicemembers?

                         TREATMENT OF DETAINEES

    Secretary Rumsfeld. I'll try to answer. I'm not sure I 
understand the----
    Senator Durbin. Let me restate it.
    Secretary Rumsfeld [continuing]. Structure of the question.
    Senator Durbin. It wasn't clear, and I want to make sure it 
is. There's been a question as to whether you're going to make 
some distinctions in the Army Field Manual in the way we treat 
prisoners. And the standard that was published in the Army 
Field Manual, an unclassified document, was as follows, that we 
would not employ interrogation technique against prisoners that 
would be considered unlawful if it were employed against 
American servicemembers. Will that still be the standard--one 
single consistent standard?
    Secretary Rumsfeld. Let me try to respond. The Army Field 
Manual rewrite has been undertaken. It's completed. It's been 
completed for a number of weeks. I shouldn't say ``completed.'' 
It has been in a draft form for circulation for a number of 
weeks. I believe some portions of it have been discussed on the 
Hill. It is complicated, because of some definitional issues. 
It clearly is designed to comply with the law. Let there be no 
doubt about that.
    The--part of your question leads me to believe that it goes 
to the question----
    Senator Durbin. The law--it says there will be one uniform 
standard. That was the McCain amendment. There were no 
distinctions. Was that what the Army Field Manual will be 
recommending?
    Secretary Rumsfeld. Well, if you're asking me, ``Will the 
Army Field Manual be recommending that it be, in every sense, 
complying with the law?'' the answer is, it will.
    Senator Durbin. And the interrogation techniques that will 
be included would be interrogation techniques which we would 
find lawful if they were used on American servicemembers?
    Secretary Rumsfeld. Yeah, I am not a lawyer, as you know, 
and the reason I started to respond to that part of the 
question is, there is a debate over the difference between a 
prisoner of war, under the Geneva Convention, and an unlawful 
combatant, in a situation that is different from the situation 
envisioned by the Geneva Convention. And those issues are being 
wrestled with at the present time, but you can have every 
confidence that the Army Field Manual, which is, as far as I'm 
concerned, almost ready to come out, will be seen as, and, in 
fact, be, consistent with U.S. law.
    Senator Stevens. The time has expired----
    Senator Durbin. Thank you.
    Senator Stevens [continuing]. Senator.
    Senator Specter, recognized for 7 minutes.
    Senator Specter. Mr. Secretary, has there been any 
objection by the Department of Defense to the format of the 
defense appropriations bill with respect to earmarks?

                                EARMARKS

    Secretary Rumsfeld. I guess sometimes beauty is in the eye 
of the beholder. I can express, not a departmental view, 
because it hasn't been coordinated, but, to the extent that 
billions of dollars are taken out of things that we 
recommended, and to the extent things are proscribed from our 
doing them--for example, with respect to the military 
healthcare programs--and that we're restricted with respect to 
transfer funds and reprogramming in a manner that's harmful, 
then, obviously, it's inconsistent with what we recommended and 
the President recommended.
    Senator Specter. Do you think----
    Secretary Rumsfeld. And----
    Senator Specter [continuing]. Do you think----
    Secretary Rumsfeld [continuing]. Once money is taken away 
from one thing and put into something else--we wanted it where 
we recommended. On the other hand, the Congress's Article I of 
the Constitution, and the President proposes, and the Congress 
disposes. And----
    Senator Specter. Well, that was my next question. Do you 
think Congress has an appropriate role in the designation of 
earmarks?
    Secretary Rumsfeld. I obviously think Congress has an 
appropriate role. The way the Constitution's written, they 
control the budget.
    Senator Specter. Mr. Secretary----
    Secretary Rumsfeld. And I can read.
    Senator Specter. Mr. Secretary, without getting into the 
substance of the comments of complaints by retired generals, 
has there been any significant impact on the morale of the men 
and women in the Department of Defense because of those 
disagreements?
    Secretary Rumsfeld. I don't know that--I haven't done any 
polling or taken temperatures in that. I haven't noticed 
anything. Ask General Pace. He's around all the time.
    Senator Specter. How about it, General Pace?
    General Pace. Sir, certainly not within the building. I'll 
reserve my comments, because you haven't asked a question. But 
General Hagee is the most recent Joint Chief to come back from 
overseas. During this time, this was all bubbling in the press. 
He received zero questions from any servicemember of any rank. 
Sergeant Major Gainey, who is a senior enlisted advisor to the 
chairman, travels all the time, and he comes back and reports 
back to me, as recently as last week, that, in all of his 
travels, with as many people as he meets, not a single person 
has asked that question. So, as far as morale of the force, no 
impact, sir.
    Senator Specter. Mr. Secretary, according to congressional 
research, 80 to 90 percent of the intelligence budget goes 
through, or is controlled by, the Department of Defense. Is 
that accurate?
    Secretary Rumsfeld. Well, it's a matter of public record. I 
don't know what the percentage is. But a major portion is 
funded through the budget. And a portion of that ends up being 
administered by other intelligence agencies.
    Senator Specter. Has there been any reduction in that DOD 
control since the creation of the Director of National 
Intelligence?

                        INTELLIGENCE MANAGEMENT

    Secretary Rumsfeld. Oh, I think the answer is yes. I mean, 
clearly, once a law passes establishing the Director of 
National Intelligence and assigning certain responsibilities, 
we end up, technically, with somewhat less authority. On the 
other hand, before the law was passed I had a very close 
working relationship with the Director of Central Intelligence. 
Since the law has passed, I have worked very closely with the 
Director of CIA, as well as with the Director of National 
Intelligence. General Pace and I have lunch with him every 
week, and we've always had a very collegial relationship. And I 
wouldn't have thought of recommending to the President someone 
to head up a major DOD intelligence function without sitting 
down and talking to either the Director of CIA or the Director 
of National Intelligence, in this case, and discussing it. And 
the same thing's done on budgets. We do things with respect to 
the budgets on various satellite systems, for example, and 
we've established various memorandas of understanding and 
methods of operating together. And it's a very collegial, 
constructive, continuous relationship. At the top, down in the 
field. It's excellent. I mean, you talk to General Abizaid or 
General Casey, they feel they have superb linkages with the 
agency. And it's in the middle, where people, you know, chatter 
with the press and stuff like that, that suggest to the 
contrary. And I read these articles, and I go to Negroponte or 
Porter Goss or Steve Cambone, and say, ``What's this about?'' I 
don't see it. And it reads like fiction to me. Obviously, 
somebody's feeding that stuff, but I don't get it. I think it's 
mythology.
    Senator Specter. Mr. Secretary, were the media reports 
accurate that there was a disagreement between you and General 
Hayden as to whether NSA would come under DNI or DOD?
    Secretary Rumsfeld. Well, I'm glad you asked that, Senator. 
Let me just tell you what happened.
    Senator Specter. Thank you.
    Secretary Rumsfeld. I go to work every day and spend, you 
know, 12-13 hours working, and I meet with dozens and dozens of 
people all the time, and I hear their views all the time. I ask 
their views all the time. And if anyone thinks that everyone 
always recommends exactly what I think, they're wrong. It 
happens 20 times a day that someone makes a recommendation to 
General Pace or to me that I either don't have an opinion on--
now, in the case of Hayden, General Hayden came in to me during 
the debate in the Congress about where the National Security 
Agency should be located. The President had not taken a 
position at that stage, certainly had not taken a position that 
it should be transferred from the Department of Defense to the 
DNI. General Hayden said he thought that it would make sense to 
have it transferred to the DNI. Were you in the meeting?
    General Pace. I was, yes.
    Secretary Rumsfeld. Yeah. And others had a different 
opinion. And that was fine. And the President decided to not 
transfer it over to the DNI. And I agreed with the President.
    Senator Specter. Mr. Secretary, thank you very much for 
responding to my--letter from Senator Sessions and myself about 
the efforts in Colombia to liberate three men who were taken by 
the gangsters down there. And I've gotten a follow-up letter 
from General Sharp, and I appreciate that.
    I've--I know, from the correspondence, that you share the 
view that--and you say you are doing everything that can be 
done. And I appreciate your maintaining that. I think it might 
be useful to let the folks on the ground know all the things 
that are going on, because there is a sense there, that Senator 
Sessions and I heard, that they thought more could be done. 
But--I'm assured by what you have to say, but I think some 
assurances to them would be helpful, as well.
    Thank you very much, Mr. Secretary and General Pace, for 
your service.
    Secretary Rumsfeld. Thank you----
    Senator Stevens. The Senator's time----
    Secretary Rumsfeld [continuing]. Senator.
    Senator Stevens [continuing]. Has expired.
    Secretary Rumsfeld. General Pace--we deal with the Southern 
commander on this subject on a regular basis, and certainly he 
may know more than I know, but we don't know more than he 
knows.
    General Pace. No, sir, I think we--I think what you said, 
sir, is that you understand the answer you got, but that there 
are some folks in the field who don't quite yet know everything 
that's going on. Is that correct, sir?
    Senator Specter. Correct.
    General Pace. And that is in Colombia on the ground sir, is 
that what you're----
    Senator Specter. In Bogota.
    General Pace. Yes, sir. We'll work with Southern Command, 
sir, and make sure that the people who should know, know, 
although everybody should not know everything----
    Senator Stevens. Thank you very much. Your time has 
expired, Senator.
    Senator Domenici is recognized for 7 minutes.
    Senator Domenici. Thank you very much, Mr. Chairman.
    Now, I'm not sure that I have 7 minutes worth of questions, 
but maybe I do.
    First, I want to--want to do my usual and say, to both of 
you, thank you for the work you do. I'm sorry that we don't get 
to have you appear before us more often and talk about what's 
going on, but you get plenty of opportunity to talk with the 
American people about how you think things are going in the 
American involvement in Iraq and elsewhere. And I want to 
personally thank both of you for what you do. I think your work 
is well received.
    Mr. Secretary, a couple of my questions will be parochial 
and not intended in any way to put you either on the spot or 
precipitate any decisionmaking. But you know we have Cannon Air 
Force Base over on the southern side of New Mexico. And it was 
created as a enclave, e-n-c-l-a-v-e, by the Base Realignment 
and Closure Commission (BRAC). I understand, from the Secretary 
of the Air Force, that the proposal for what to do with the 
enclaved facility, since you were charged with doing something 
with it, it was said you shall, and that it has now cleared all 
of the various interdepartmental reviews. I just wanted to ask 
a general question. Is it fair to assume that it's not going to 
be a lengthy time before the decision would take place as to 
what goes into the enclave, since all of the interdepartmental 
reviews have already been completed? Is it fair to assume it 
will take--the decision will take place rather soon?

                BASE REALIGNMENT AND CLOSURE COMMISSION

    Secretary Rumsfeld. Senator Domenici, my recollection is 
that there was an end date in the BRAC process by----
    Senator Domenici. Well, it's way out----
    Secretary Rumsfeld [continuing]. By which we had to have 
done it.
    Senator Domenici. That's years from now.
    Secretary Rumsfeld. Well----
    Senator Domenici. They leave the enclave open for a long 
time.
    Secretary Rumsfeld. Well----
    Senator Domenici. But you are finished with your work, and 
I'm wondering when the decision would then be made.
    Secretary Rumsfeld. Well, as I told you, we were very 
hopeful that we could get an answer to that well before that 
deadline date that the BRAC set. And I know you've met with the 
Secretary of the Air Force, and I've met with the Secretary of 
the Air Force, and they are not only aggressively looking to 
answer that question within the Air Force, but they're looking 
within other services and other agencies, as well. But I'd be 
reluctant to predict a date. This says the Air Force will 
complete its analysis in the late spring and apparently come up 
to me sometime midsummer. But then we have to see what we think 
about the recommendation. And they've been working closely with 
you throughout the process, and will continue to do so.
    Senator Domenici. Thank you very much.
    Now, I have a--kind of, a real interest in UAVs. And I want 
to ask you if my assessment has any chance of being accurate. I 
believe that the operative--the ability to operate UAVs, 
continental United States, is being greatly impeded by the 
Federal Aviation Administration (FAA), that the UAVs are not 
getting the fair chance to participate within the national 
airspace system, which is controlled by the FAA. If that is the 
case--and I understand it is--why don't we look for some other 
space in the United States that is not controlled by them, that 
we might do the research and do the training? I have a 
suggestion that you would look at something like the airspace 
that we have at White Sands Missile Range. In any event, leave 
out the suggestion, and just talk with me a moment about 
whether my observation and thought that the UAV is being 
impeded, in terms of being--its implementation capabilities, 
because we can't fit it within the national airspace system and 
the FAA holds things up. Is that a fair assessment, or am I 
wrong?

    FEDERAL AVIATION ADMINISTRATION COORDINATION ON UNMANNED AERIAL 
                                VEHICLES

    Secretary Rumsfeld. Well, I don't sit in the shoes of the 
FAA, so I can't say whether it's being impeded. It is clear 
that they are wrestling with the issue of how unmanned aircraft 
should be managed in airspace that they control. And it is, I 
think, probably not a simple question, and it's complicated. At 
the present time, these certificates of authorization for 
unmanned aircraft to operate in controlled airspace take, you 
know, 60 to 120 days to get through. I'm not in a position to 
judge it. All I can tell you is, we're working very hard with 
the FAA to try to develop the flexibility that would be 
desirable. This is a new thing, unmanned aircraft flying around 
in airspace where there are manned aircraft. And it is not a 
simple thing, I think. And they--we don't have the rules or the 
procedures or the arrangements or the understanding or the 
confidence, and we simply have to just work it through with 
them. And we are, as you know--we share your desire to see it 
get resolved as soon as possible.
    Senator Domenici. Well, Mr. Secretary, I just want to 
suggest to you that everything you have just said is correct, 
but when I look at how long it has been taking for all of this 
to evolve, it's not months, it's years--1964 is when all this 
started. I do at least want to close this little discussion by 
urging that everything possible be done to expedite this work, 
so we can take advantage of it. It's--they're needed on all 
different fronts, and we've got to train them within this 
American zone, and that's being deterred. So, I just lay that 
before you and urge it, and thank you for your response.
    I have another one that I just want to suggest, that things 
are being done well in one part of the Defense Department, and 
I wonder if you would consider broadening it. Water 
purification. And I address this issue to you, General Pace. As 
you know, it has been a tremendous problem for the Department, 
and it--right down to marines who are trying to have clean 
water as they go through the filthiest war zones you can 
imagine. And there are ways to produce clean water for them 
rather quickly, in scientifically different ways.
    I want to tell you that the United States Marine Corps has 
worked to develop an individual water purifier system that will 
enable soldiers to gather water from any source, anywhere, and 
purify it into drinking water that meets the Environmental 
Protection Agency (EPA) standards. I'm sure----
    Senator Stevens. Senator, this will have to be your last 
question, General. It's----
    Senator Domenici. Okay.
    Senator Stevens. Thank you.
    Senator Domenici. Fine. I just want to know, since those 
efforts are within one department, General Pace, would it be 
fair to say that, since they are so important, that these 
efforts are being considered for the broader Defense Department 
so that they are not just for one department, but for the 
entire military, because they all need these kinds of things?
    General Pace. Sir, that is exactly correct. It is fair to 
say that. And, in fact, when I was the chair of the Joint 
Requirements Oversight Council, we had the Marine Corps brief 
the other services on just those plans. And they are moving 
forward on that. It will be a joint effort, sir.
    Senator Domenici. It will be a joint effort.
    General Pace. Yes, sir.
    Senator Stevens. Thank you very much, Senator.
    Senator Domenici. Thank you, Mr. Chairman.
    Senator Stevens. Senator Dorgan is recognized.
    Senator Dorgan. Mr. Chairman, thank you. I'm sorry I was at 
another hearing, but I've read the testimony.
    General Pace, you indicated that, in your percentages to 
Senator McConnell, the number of Iraqi troops that have been 
trained. And you talked about the number of them that are 
controlling territory on their own, and the amount of territory 
they're controlling. And yet, you said, in response to Senator 
Durbin, that there is no territory that is sufficiently 
controlled by Iraqi troops that would allow the withdrawal of 
all American troops. Those two answers seem at odds, to me. Can 
you explain them?
    General Pace. Sir, thanks for the opportunity to clarify. 
The specific question that Senator Leahy asked me was, was 
there any of the 18 provinces that could be completely turned 
over to Iraqi forces? When I answered him, I said, ``No, sir.'' 
What I should have said, to make sure everyone understood, was 
that, for an entire province to take all U.S. and coalition 
forces out inside the next 3 months, the answer to that 
question is, ``No, sir.'' That----
    Senator Dorgan. So, the----
    General Pace [continuing]. Does not mean that they're not 
making great progress on the ground. As I said, in Baghdad they 
have over half, and other----
    Senator Dorgan. But----
    General Pace [continuing]. Locations.
    Senator Dorgan. But Senator Durbin made the point that I 
would make, as well. We have now been, I think, 2 years or 3 
years--I guess, 2 years--hearing a lot of good things about 
Iraqi security being trained up. And yet, it seems to me, at 
some point in a reasonable time, we should have trained up 
enough to be able to say to the Iraqi people, ``This is your 
country. The country of Iraq belongs to you, not us. And you 
have to decide whether you have the will and the capability, 
given the amount of money that we've spent training your 
security, to provide the security for yourselves in your own 
country.'' At some point, the Iraqi people have to make that 
judgment. And, at some point, it seems to me, we have to bring 
American troops home. I understand the importance of all of 
this, but I do think we've had a lot of discussion for a long 
time about how much progress we're making, and yet none of the 
territories that you've described--would we be able to bring 
American troops out of the territory and turn the territory--
the province completely over to the Iraqi troops.
    I want to just--I want to ask about the retired generals, 
Secretary Rumsfeld. And I wondered whether I should do this, 
but I want to do it. All the time that I have served here, and 
the decades before, I have not heard half a dozen retired 
generals or so, some four stars, some very significant military 
leaders, having retired, openly critical--in fact, I think, in 
a couple of cases, calling for your resignation. Let me ask the 
question of you. Do--you've heard these criticisms. Do you take 
them seriously? Are there--are these criticisms by retired 
generals, are they raising legitimate issues? Are they issues 
that resonate with you? Give me your assessment of what's 
happening with some very significant criticism from folks who 
used to be military leaders in this country.

                      RETIRED GENERALS' CRITICISM

    Secretary Rumsfeld. Well, sure I take things seriously. And 
I've wanted to reflect on it. I read a lot of history, and I 
guess I don't think there's ever been a war where there haven't 
been disputes and differences among generals, and between 
generals and civilians, and among civilians. Think back, 
General McClellan called Abraham Lincoln a ``gorilla'' and an 
``ape.'' So, this is not new. There hasn't been a time when 
there haven't been people of different views.
    There are 7,500 active and retired generals and admirals. 
You've characterized what some have said. It's a relatively 
unusual thing, and I quite agree with you in that regard. And 
then you say, Is any of it valid? There are those who have 
consistently disagreed with the size of the force. And I guess 
history's going to have to make that judgment. But the truth is 
that the size of the force was the size that was selected by 
General Tom Franks, approved by the Joint Chiefs of Staff, the 
Chairman and the Vice Chairman, one of whom is sitting next to 
me, recommended to the President. And that was the number.
    Now, if people don't like that number, and they want to 
blame somebody, fine, they blame me. That goes with the 
territory. It is a fact that it is a tough call. It's not a 
science; it's an art, coming up with those numbers.
    The second thing I would say is, I really honestly believe 
that if you undertake the kinds of transforming in this 
Department, any big department, and if you do something, 
somebody's not going to like it. And we've done a lot. We have 
a new personnel system that the Congress passed that a lot of 
people don't like, and they're arguing. We've put a marine in 
as Chairman of the Joint Chiefs for the first time, and there 
are people who don't like that. I brought a retired general in 
to run the Army, and there are people who didn't like that.
    Senator Dorgan. Mr. Secretary----
    Secretary Rumsfeld. We've done a lot to change that 
Department, and, in every instance, there's resistance, as 
there always will be in big organizations.
    Senator Dorgan. Mr. Secretary, we're stretched pretty thin 
on a range of--in a range of areas--National Guard and other 
areas. Do you foresee any circumstance under which, in the 
future, the Secretary of Defense will recommend the 
reinstitution of a military draft?

                             MILITARY DRAFT

    Secretary Rumsfeld. Well, I hate to answer the second part 
first, but I will. The answer is, flat, no. We don't need a 
draft. It would be harmful to reinstitute a draft. We have a 
country of, what, close to 300 million people, and we have an 
active duty force of 1.4 million, and Guard and Reserve of 
another 450,000. And all we need to do is what anyone else with 
a volunteer entity has to do, and that's adjust the incentives 
so that you can attract and retain the people you need and have 
to have to defend this country. And, thank the good Lord, there 
are plenty of people putting their hands up and volunteering to 
do that, even though they could possibly be in a safer position 
or a more comfortable position. And they're doing it.
    So I wouldn't even think of it. But, in my view, the 
premise of your question was wrong. You say the Guard and the 
Reserve and the force is stressed.
    Senator Dorgan. No, I said stretched pretty thin.
    Secretary Rumsfeld. Stretched pretty thin. Well, I mean, I 
think that they are doing a terrific job, and we are moving a 
number of military people out of civilian functions into 
military functions, tens of thousands. So, we're increasing the 
size of the force and reducing that stress. We have a meeting 
once a month, going over all--something like 37 things, 38 
things--to reduce stress on the force, and stretch--I forget 
the word you used--but----
    Senator Dorgan. Stretched thin. But let me make the point, 
I didn't suggest they weren't doing a great job. That wasn't 
the point of my question.
    Secretary Rumsfeld. No, I know that. But in terms of the 
``stretched thin,'' I mean, out of the blue, people are saying, 
``Oh, my goodness, the President wants to put 6,000 people down 
to help the Border Patrol, and the Guard's already exhausted.'' 
Well, the fact of the matter is, only about--the force over in 
Iraq is about 19 percent Guard and Reserve, I think, at the 
present time, General Blum. And we've got 450,000 Guard and 
Reserve. And he's talking about 6,000 for 1 year, and they're 
going to be doing it on their active duty for training. There's 
so much misinformation flying around about this, and it is not 
going to be a stress on the National Guard to do that function. 
They're going to be able to do what the Governors need them to 
do as well. I have every confidence that they can do that.
    General Pace. Senator, may I have----
    Senator Dorgan. Mr. Chairman, my time is--yes?
    General Pace. Mr. Chairman, may I impose on you to ask for 
1 minute?
    Senator Stevens. Yes, sir.
    General Pace. Thank you. Because it's important, as I sit 
here representing the uniformed military, that I speak my mind 
about the opportunity for the uniformed leadership to inform, 
digest, debate, have dialogue with the civilian leadership. And 
it is a daily ongoing process, whether it be a combatant 
commander who brings his ideas forward to ``The Tank'' and the 
Secretary, and we have the iterative process that goes on every 
day, or if it's the 2 to 3 to 4 to 5 hours every day that I 
spend with the Secretary of Defense listening to briefings. 
Every single officer who walks into the Secretary of Defense's 
office is expected to speak his or her mind, and is encouraged 
to do so. And our Armed Forces need to understand clearly from 
their chairman that all of their leaders are expected, 
encouraged, and are afforded the opportunity to have a very 
open, honest dialogue about what we believe and what we don't 
believe.
    Senator Dorgan. Mr. Chairman, let me thank both the General 
and the Secretary for coming and making themselves available 
for questions. And I expect you started, as we all would, to 
thank the men and women who wear America's uniform.
    Senator Stevens. Well, thank you very much.
    I'm constrained to say that I recall the days of the draft. 
And Senator Goldwater and I didn't believe that a draft should 
take place in a democracy, short of an all-out war. And I 
introduced an amendment to draft women. Did you know that, Mr. 
Secretary? And, of course, it failed the Senate. But the Senate 
woke up to the fact that it was discrimination, and it was not 
a time when we should have a draft. We still have registration 
for the draft, still have the possibility of a draft if we get 
into a world war.
    But, second, I think you were very fair in your questions, 
and we appreciate the Secretary's answer to clear up the thing.
    But I have been privileged, Mr. Secretary, at your 
invitation--and I think Senator Inouye's gone to some--to go to 
some of the dinners that you've had informally with your--
members of the Joint Chiefs and with other officers. And I can 
tell you that, in my 38 years, I've never seen the ambience 
that I have seen, in terms of the open dialogue, General, open 
discussion, and sometimes with wives, sometimes without them, 
the Secretary has had these gatherings. And I personally 
appreciate the openness that is existing now in the military. I 
think military officers feel free to stand up and say what they 
want to say, whether they're retired or otherwise. And that's--
this is the democracy. First amendment still applies to people 
in uniform, General. And I appreciate the fact that you're 
insisting on that, and that the Secretary encourages it.

                     ADDITIONAL COMMITTEE QUESTIONS

    So, we appreciate your coming. We appreciate both of your 
service to this Nation, and, really, can't tell you how much we 
all appreciate the overwhelming courage and commitment of the 
young people under your command.
    So, we'll stand in--
    Senator, do you have any further comment?
    [The following questions were not asked at the hearing, but 
were submitted to the Department subsequent to the hearing:]
            Questions Submitted by Senator Pete V. Domenici
    Question. Do you agree that, since these facilities are associated 
with BRAC recommendations, BRAC funds should be used for these 
construction projects?
    Answer. Yes, Base Realignment and Closure (BRAC) funds should be 
used for the construction requirements associated with Commission 
recommendation number 33 (Reserve Component Transformation in New 
Mexico) and Commission recommendation number 187 (Defense Research 
Service Led Laboratories).
    Question. What does Fort Bliss need from White Sands Missile Range 
and Holloman Air Force Base in order to conduct field testing relating 
to the Future Combat System in New Mexico?
    Answer. Fort Bliss, Texas, was selected as the home for field 
testing the Army's Future Combat System (FCS) because of its access to 
White Sands Missile Range (WSMR) and the proximity to the Holloman Air 
Force Base. The area provides the requisite land, airspace, and 
facilities for Evaluation Brigade Combat Team Soldiers to fully train, 
test and evaluate FCS capabilities. Other examples of support include 
air traffic control, frequency management, and range scheduling. We 
anticipate using these resources at all affected facilities. While the 
development, training and testing of an FCS-equipped force is a 
significant task, from a test/training event coordination perspective 
it is one that is not dissimilar from other major exercises such as 
Roving Sands. Success will depend on close coordination and 
communication between the FCS program management office, Fort Bliss, 
WSMR, and Holloman AFB. Much work has already occurred. WSMR and Fort 
Bliss have conducted regular interchanges in the past and continue to 
coordinate emerging detailed requirements. Similarly, there are joint 
agreements between WSMR and Holloman AFB that will be exercised as more 
detailed test plans are finalized.
    Question. Mr. Secretary, I would appreciate your perspective on the 
importance of basic research.
    Answer. Department of Defense (DOD)-sponsored basic research 
produces new knowledge and understanding that underpins the development 
of future military capabilities. Prior basic research enabled us to 
develop today's revolutionary military capabilities, including the 
Global Positioning System, stealth, night vision devices, and precision 
strike. We expect equally important new capabilities to emerge over the 
long-term from today's investments in basic research. Our support for 
basic research today will help to give future leaders the capability 
edge they need to deter potential adversaries and, if necessary, 
conduct military operations.
    Basic research has an additional long-term benefit to the DOD 
because universities are the predominant performers of basic research 
in this country and university research is inextricably linked with the 
training of scientists and engineers in fields important to national 
defense. DOD-supported basic research thereby helps to ensure the 
future availability of talent needed for defense research and 
development.
                                 ______
                                 
            Questions Submitted by Senator Patrick J. Leahy
    Question. Has the Department of Defense (DOD) determined which 
items from the War Reserve Stocks for Allies, Korea (WRSA-K) will be 
offered to the Republic of Korea (ROK)? Has a formal offer been made to 
the ROK? If so, please provide a comprehensive list with types and 
quantities. Please also indicate what items are not being offered.
    Answer. Yes, DOD has determined which items from the War Reserve 
Stocks for Allies, Korea (WRSA-K) will be offered to the Republic of 
Korea (ROK) in negotiations. Pending authority to negotiate a War 
Reserve Stockpile agreement, a formal offer has not been made to the 
ROK. Although a formal offer has not been made to the ROK, attached are 
seven lists of the types and quantities of items that will be offered 
to the ROK, and items that will not be offered, as follows: (1) U.S. 
Army WRSA-K munitions items that will be offered; (2) U.S. Army WRSA-K 
munitions items that will be retained, (3) U.S. Army WRSA-K non-
munitions items that will be offered; (4) U.S. Army WRSA-K non-
munitions items that will be retained, (5) U.S. Navy WRSA-K munitions 
items that will be offered, (6) U.S. Air Force WRSA-K munitions items 
that will be offered; and (7) U.S. Air Force WRSA-K munitions items 
that will be retained.
    Question. Has a formal offer been made to the ROK? If so, please 
provide a written copy.
    Answer. No, a formal offer has not been made to the Republic of 
Korea (ROK).
    Question. Please provide the number, quantity and type of 
antipersonnel mines and mine-related equipment, including delivery 
systems, now included in the War Reserve Stocks for Allies, Korea.
    Answer. The number of Claymore K143 mines now in War Reserve Stocks 
for Allies, Korea (WRSA-K) stocks is 166,895. Of that number, 57,625 
will be retained by the Army. The number of Claymore K145 mines now in 
WRSA-K stocks is 25,580. A total of 134,580 Claymore mines (K143 and 
K145) will be negotiated for transfer to the Republic of Korea (ROK). 
There also are 83,479 K092 mines and 480,267 K121 mines in WRSA-K 
stocks. All of the K092 or K121 mines will be retained by the Army. 
There is no other mine-related equipment, including delivery systems, 
in the WRSA-K stocks.

                                                        U.S. ARMY WRSA-K MUNITIONS TO BE RETAINED
--------------------------------------------------------------------------------------------------------------------------------------------------------
                                                                              RETAIN
              DODIC                         CC              QOH    TRANSFER  FOR U.S.           ACC                          NOMENCLATURE
                                                                   TO KOREA     USE
--------------------------------------------------------------------------------------------------------------------------------------------------------
K092.............................  A...................    24,543  ........    24,543  ROK.................  MINE ANTIPERSONNEL: M16 SERIES W/FU
K092.............................  H...................         2  ........         2  DRK.................  MINE ANTIPERSONNEL: M16 SERIES W/FU
K092.............................  N...................    58,934  ........    58,934  WRK.................  MINE ANTIPERSONNEL: M16 SERIES W/FU
K121.............................  A...................   480,267  ........   480,267  ROK.................  MINE ANTIPERSONNEL: M14 NON METALLI
K143.............................  A...................    57,625  ........    57,625  ROK.................  MINE ANTIPERSONNEL: M18A1 W/ACCESSO
                                                                            ----------
      TOTALS.....................  ....................  ........  ........   621,371  ....................  ...........................................
--------------------------------------------------------------------------------------------------------------------------------------------------------


                                                        U.S. ARMY WRSA-K MUNITIONS TO BE OFFERED
--------------------------------------------------------------------------------------------------------------------------------------------------------
                                                                              RETAIN
              DODIC                         CC              QOH    TRANSFER  FOR U.S.           ACC                          NOMENCLATURE
                                                                   TO KOREA     USE
--------------------------------------------------------------------------------------------------------------------------------------------------------
K143.............................  E...................    99,736    99,736  ........  ROK.................  MINE ANTIPERSONNEL: M18A1 W/ACCESSO
K143.............................  F...................     9,518     9,518  ........  ROK.................  MINE ANTIPERSONNEL: M18A1 W/ACCESSO
K143.............................  H...................         6         6  ........  ROK.................  MINE ANTIPERSONNEL: M18A1 W/ACCESSO
K143.............................  H...................        10        10  ........  DRK.................  MINE ANTIPERSONNEL: M18A1 W/ACCESSO
K145.............................  E...................    25,580    25,580  ........  ROK.................  MINE ANTIPERSONNEL: M18A1 WITHOUT F
                                                                            ----------
      TOTALS.....................  ....................  ........  ........   134,850  ....................  ...........................................
--------------------------------------------------------------------------------------------------------------------------------------------------------

    Question. Is the transfer of antipersonnel mines from the WRSA-K to 
the ROK permissible under the comprehensive U.S. moratorium on export 
of antipersonnel mines?
    Answer. It is permissible to transfer all the Claymore mines (K143 
and K145) in the War Reserve Stocks for Allies, Korea (WRSA-K) stocks 
to the Republic of Korea (ROK). None of the K092 or K121 mines will be 
included in the negotiations for possible transfer.
    Question. If the DOD plans to transfer antipersonnel mines and 
mine-related equipment to the ROK, please identify the items, quantity, 
cost to the ROK, and the country where they are located at this time.
    Answer. DOD will negotiate to transfer to the Republic of Korea 
(ROK) 109,270 of the K143 Claymore mines and 25,580 of the K145 
Claymore mines. The cost to the ROK is not known at this time. The cost 
will be based on fair market value as offset by concessions to be 
negotiated. All of the War Reserve Stocks for Allies, Korea (WRSA-K) 
Claymore mines are currently located in the ROK.
    Question. If antipersonnel mines are to be transferred, what is the 
timetable?
    Answer. There is no timetable established to transfer any of the 
War Reserve Stocks for Allies, Korea (WRSA-K) items to the Republic of 
Korea (ROK) government. It is likely that all items negotiated for 
transfer will be transferred at the same time. All transfers will be 
completed by December 2008. (Public Law 109-159 requires that all 
transfers authorized under the provision will be completed within three 
years of enactment of the provision.)
    Question. If the DOD does not intend to offer the antipersonnel 
mines in the WRSA-K to the ROK, or if the ROK government does not want 
the mines, how does the DOD intend to dispose of them?
    Answer. If during the negotiations the Republic of Korea (ROK) 
Government indicates it does not want the Claymore mines that are 
available for transfer, then DOD intends to demilitarize them in the 
ROK or retrograde them back to the United States for demilitarization.
    Question. Are any U.S. antipersonnel mines stored in Japan as part 
of WRSA-K? Would the transfer of any such mines out of Japan to the ROK 
be permissible under the 1997 Mine Ban Treaty (Ottawa Convention), to 
which Japan is party?
    Answer. None of the U.S. antipersonnel mines in War Reserve Stocks 
for Allies, Korea (WRSA-K) are stored in Japan. All of the WRSA-K mines 
are stored in the Republic of Korea (ROK).

                          SUBCOMMITTEE RECESS

    Senator Stevens. We'll stand in recess. We'll reconvene on 
Wednesday, May 24, when we're going to start hearing from 
public witnesses regarding the Department of Defense request 
for 2007.
    Thank you very much.
    Secretary Rumsfeld. Mr. Chairman, thank you very much for 
those remarks.
    General Pace. Thank you, Mr. Chairman.
    [Whereupon, at 12:20 p.m., Wednesday, May 17, the 
subcommittee was recessed, to reconvene at 10 a.m., Wednesday, 
May 24.]

</pre></body></html>
